Report No. D-2011-101          August 17, 2011




              Controls Over Army
    Deployable Disbursing System Payments
              Need Improvement
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
CAPS                          Computerized Accounts Payable System
COOP                          Continuity of Operations Plan
CSI                           Customer Support Initiative
DASA-FO                       Deputy Assistant Secretary of the Army
                                 (Financial Operations)
DDS                           Deployable Disbursing System
DFAS                          Defense Finance and Accounting Service
DoD FMR                       DoD Financial Management Regulation
DSSN                          Disbursing Station Symbol Number
EFT                           Electronic Funds Transfer
FMC                           Financial Management Center
LOA                           Line of Accounting
NIST FIPS PUB 200             National Institute of Standards and Technology, Federal
                                 Information Processing Standards Publication 200
OMB                           Office of Management and Budget
PMO                           Program Management Office
SOA                           Statement of Accountability
STANFINS                      Standard Finance System
SWA                           Southwest Asia
USAFMCOM                      U.S. Army Financial Management Command
U.S.C.                        United States Code
                                  INSPECTOR GENERAL 

                                DEPARTMENT OF DEFENSE 

                                   400 ARMY NAVY DRIVE 

                              ARLINGTON, VIRGINIA 22202-4704 




                                                                               August 17,2011

MEMORAN DUM FOR UN DER SEC RETARY OF DEFENSE (COMPTROLLER)/
                   CHI EF FINANC IA L OFFICER, DOD
                DIRECTOR, DEFENSE FINAN CE AN D ACCO UNTfNG
                   SERVICE
                A UDI TOR GENERAL, DE PARTMENT OF T HE ARMY

SU BJ ECT: 	 Control s Over Arm y Depl oya bl e Di sbursing System Payments Need
             Improve ment (Report No . 0-2011 - 10 I)

We are providing this report for rev iew and comment. Army di sbursing offi ces processed
over 272 , 13 1 commercia l and mi sce llaneous payments, tota ling $ 13. 1 billi on, through the
Deployable Di sbursing System. Army controls were inadequate and resulted in access
control issues, payment certification defic iencies, and improper payments. In addition, the
databases provided by Defense Fi nance and Accounting Service were mi ssing
13,795 payments for $801.3 million. We a lso identified potential monetary bene fi ts fo r
duplicate payments, totaling $ 162,258, that, if co ll ected, the Government could put to
better use. We considered management comm ents on a draft of thi s report when preparing
th e final report.

0 00 Directi ve 7650 .3 requires that recommendations be reso lved promptly. T he
comments fro m the Deputy Chi ef Financ ia l Officer and the Ass istant Secretary of the
Army (Fina nc ia l Operations) were responsive and requi re no further comment. Although
most comments from the Deputy Director, O perations, Defense Finance and Accounting
Service, were responsive and require no further comment, we request add itiona l
comments on Recommendat ion B.2.b by September 16,20 II .

If possibl e, send a .pdf fi Ie conta inin g your comments to audfmr@dod ig.mil. Copi es o f
your comments must have the actua l signature of the authorizing o ffic ia l fo r your
organization. We are unable to accept the /Signed/ symbol in place of th e actua l
signatu re. If you arrange to se nd c lass ifi ed comments e lectroni ca lly, you mu st send them
over th e SECRET Internet Protoco l Router Network (SIPRNET).

We apprec iate the courtes ies extend ed to the staff. Pl ease direct questi ons to me at
(703) 601 -5868 (DSN 664-5 868).




                                      P~Q · /h ~
                                       Patri cia A. Marsh, CPA 

                                     Assistant Inspector General 

                                Financ ia l Management and Re porting 

Report No. D-2011-101 (Project No. D2007-D000FL-0252.003)                         August 17, 2011

               Results in Brief: Controls Over Army
               Deployable Disbursing System Payments
               Need Improvement
                                                           out of the 402 commercial payments that we
What We Did                                                nonstatistically sampled from 211,808 payments
The objective of the audit was to determine whether        ($9.6 billion) in DDS, the financial system did not
the controls over transactions processed through the       maintain:
Deployable Disbursing System (DDS) were                     •	 accurate line of accounting (LOA) information
adequate to ensure the reliability of the data                  for 296 payments;
processed, including financial information                  •	 accurate payment method information for 

processed by disbursing stations supporting                     140 payments; and

Operation Iraqi Freedom. Army processed at least            •	 complete fundamental payment information, 

272,131 commercial and miscellaneous payments,                  such as invoice line item information for 

totaling $13.1 billion, through DDS from FY 2006                370 payments, contract or requisition number

through FY 2008. Disbursing office controls over                for 54 payments, invoice received date for 

these payments were inadequate.                                 48 payments, and invoice number for 

What We Found                                                   30 payments. 

Army disbursing personnel at 16 disbursing stations
                                                           This occurred because Army finance offices did not
did not adequately control access to commercial and
                                                           properly use DDS interfaces. Further, the Assistant
miscellaneous payment data processed through
                                                           Secretary of the Army (Financial Management and
DDS. Specifically, disbursing personnel used
                                                           Comptroller) and Director, DFAS (Information and
accounts that bypassed controls to process
                                                           Technology) did not develop systems within Army’s
$595.6 million in payments and assigned the system
                                                           financial system, including DDS, with sufficient
administrator privilege to 90 of the 253 individual
                                                           functionality to make foreign currency electronic
main site user accounts in DDS. Furthermore, the
                                                           funds transfer (EFT) payments using DDS and
disbursing offices at the seven disbursing stations
                                                           comply with the Core Financial System
visited did not properly restrict access to DDS
                                                           Requirements in requiring fundamental payment
interface files, maintain adequate separation of
                                                           information. Without accurate and complete data,
payment duties, and maintain adequate security and
                                                           DoD cannot maintain complete and documented
contingency plans. This occurred because the Army
                                                           audit trails, which are necessary to demonstrate the
Financial Management Centers did not effectively
                                                           accuracy, completeness, and timeliness of
review DDS user access or oversee the payment
                                                           transactions. Furthermore, DoD funds are at
process, and the DDS Program Management Office
                                                           increased risk for improper payments.
did not provide sufficient visibility in DDS for
management to review and identify access control
                                                           The Army disbursing offices and DFAS did not
weaknesses. As a result, the Army is at risk for
                                                           maintain a complete repository that included
losing disbursing data, improperly modifying
                                                           210 DDS database changes. This occurred because
payment transactions, improper payments, and
                                                           the U.S. Army Financial Management Command and
unauthorized viewing of personally identifiable or
                                                           DFAS officials did not have procedures on how to
classified information for 272,131 commercial and
                                                           request, approve, document, execute, and retain DDS
miscellaneous payments, totaling $13.1 billion. We
                                                           database changes. In addition, the Under Secretary
identified potential monetary benefits for duplicate
                                                           of Defense (Comptroller)/Chief Financial Officer,
payments, totaling $162,258, that, if collected, the
                                                           DoD, did not publish guidance on how to properly
Government could put to better use.
                                                           document and control changes to DoD databases. As
                                                           a result, disbursing offices initiated 294 database
The Army’s financial system did not maintain
                                                           changes to adjust $49.7 million in fund
accurate or complete information. Specifically,
                                                       i
Report No. D-2011-101 (Project No. D2007-D000FL-0252.003)   August 17, 2011
accountability without supporting documentation or
approval. Further, disbursing offices initiated
53 database changes to end-of-day balances on the
Statement of Accountability report without
documented approval of the updated report.
Until controls over these payments are strengthened,
DoD funds will continue to be at risk for improper
payments and fraud. Additionally, unauthorized
personnel may be able to view personally identifiable
and classified information.

What We Recommend
We recommend that the Under Secretary of Defense
(Comptroller)/Chief Financial Officer, DoD, issue
guidance establishing controls and audit trails for
changes to DoD databases. We also recommend
that the Deputy Assistant Secretary of the Army
(Financial Operations) improve DDS internal
controls and data reliability, implement database
change procedures with DFAS, and review DDS
database changes that affected accountability.

Management Comments and
Our Response
The Deputy Chief Financial Officer, Deputy
Assistant Secretary of the Army (Financial
Operations), and Deputy Director, Operations,
Defense Finance and Accounting Service, agreed
with the recommendations. In addition, the U.S.
Army Financial Management Command concurred
with the potential monetary benefits. The
management comments provided were responsive in
all but one instance. We request that the Director,
Defense Finance and Accounting Service, provide
additional comments in response to
Recommendation B.2.b. Please see the
recommendations table on the next page.




                                                      ii
Report No. D-2011-101 (Project No. D2007-D000FL-0252.003)           August 17, 2011

Recommendations Table

         Management                     Recommendations           No Additional
                                       Requiring Comment      Comments Required
Under Secretary of Defense                                  C.1.a, C.1.b, C.1.c, C.1.d,
(Comptroller)/Chief Financial                               C.1.e
Officer, DoD
Deputy Assistant Secretary of the                           A.1.a, A.1.b, A.1.c, A.1.d,
Army (Financial Operations)                                 A.1.e, A.1.f, A.1.g, A.1.h,
                                                            A.2.a, A.2.b, A.3, A.4,
                                                            A.5, A.6, A.7, B.1.a,
                                                            B.1.b, B.1.c, C.2.a, C.2.b,
                                                            C.3
Director, Defense Finance and       B.2.b                   B.2.a, C.3
Accounting Service

Please provide comments by September 16, 2011.




                                            iii
Table of Contents
Introduction                                                                 1

      Audit Objective                                                        1

      Background on the Deployable Disbursing System                         1

      Internal Controls Over Army Payments                                   4


Finding A. Army Needs to Enhance Controls Over DDS Access and
Payment Authorization                                                        5

      Authorization and Access Requirements for DDS                          6

      Disbursing Office Personnel Bypassed DDS Access Controls               7

      Procedures Need to be Established to Ensure Separation of Duties      12 

      Disbursing Offices Need to Use Interfaces Properly                    15 

      Army Needs to Develop Contingency Plans                               15 

      Army Needs to Maintain Certifying Officer Appointment Letters         16 

      Internal Control Weaknesses Affected Payment Data and Security        18 

      Conclusion                                                            18 

      Recommendations, Management Comments, and Our Response                19 


Finding B. Army’s Financial System Did Not Maintain Reliable
Payment Data                                                                23 

      Data Reliability Requirements for DDS                                 24 

      Army’s Financial System Needs to Maintain Accurate and Complete

      Payment Information                                                   24 

      Army Did Not Have a Centralized Database of DDS Data                  30 

      Conclusion                                                            31 

      Management Comments on the Finding and Our Response                   31 

      Recommendations, Management Comments, and Our Response                32 


Finding C. Army and DFAS Had Inadequate Controls Over DDS
Database Changes                                                            35 

      Database Change Audit Trail Requirements                              35 

      DDS Database Change Process                                           36 

      Controls Need to Be Established Over Army DDS Database Changes        36 

      Guidance on Database Changes Needs to Be Complete                     40 

      DoD Needs Policies for Documenting and Controlling Database Changes   40 

      Conclusion                                                            41 

      Management Comments on the Finding and Our Response                   41 

      Recommendations, Management Comments, and Our Response                41 

Appendices
     A. 	Audit Scope and Methodology                                    44 

            Use of Computer-Processed Data                              46 

            Use of Technical Assistance                                 46 

     B. Prior Coverage of the Deployable Disbursing System	             47 

     C. Army Vendor Payment Cycle	                                      49 


Glossary of Technical Terms	                                            52 


Management Comments
Under Secretary of Defense (Comptroller)/Chief Financial Officer, DoD   54 

Department of the Army                                                  56 

Defense Finance and Accounting Service                                  63 

Introduction
Audit Objective
Our audit objective was to determine whether DoD internal controls over transactions
processed through the Deployable Disbursing System (DDS) were adequate to ensure the
reliability of the data processed. Specifically, we reviewed Army commercial and
miscellaneous payments processed through DDS from FY 2006 through FY 2008. We
also examined financial information on commercial and miscellaneous payments
processed by disbursing stations supporting Operation Iraqi Freedom. See Appendix A
for scope and methodology and Appendix B for prior coverage related to the objective.
See the Glossary of Technical Terms for definitions of terminology used in this report.

Background on the Deployable Disbursing System
DoD Inspector General Audit Report No. D-2008-098, “Internal Controls Over Payments
Made in Iraq, Kuwait, and Egypt,” May 22, 2008, addressed a material internal control
weakness over contingency payment audit trails. In response to a draft of that report, the
Under Secretary of Defense (Comptroller)/Chief Financial Officer, DoD, stated that DDS
would improve the controls. As follow-on to the audit, we reviewed the controls over
commercial and miscellaneous payments processed through DDS. This audit is the
fourth in a series of audits that addresses DDS internal controls. The first audit reported
that the U.S. Marine Corps recorded classified information in unclassified DoD systems. 1
The second audit reported that the U.S. Marine Corps’ internal controls over payments
processed through DDS were inadequate. 2 The third audit reported on the Army’s
ineffective internal controls over the handling of classified information posted in DDS. 3

Deployable Disbursing System
The Defense Finance and Accounting Service (DFAS) DDS Program Management
Office (PMO) developed DDS to fulfill a need for a tactical disbursing system and to
maintain accountability of U.S. Treasury funds entrusted to disbursing agents. DDS
automates a variety of disbursing office functions including travel, military, commercial,
and miscellaneous payments; accounts payable; collection processes; and financial
reporting requirements.




1
  DoD Inspector General Audit Report No. D-2009-054, “Identification of Classified Information in

Unclassified DoD Systems During the Audit of Internal Controls and Data Reliability in the Deployable

Disbursing System,” February 17, 2009.

2
  DoD Inspector General Audit Report No. D-2010-037, “Internal Controls Over United States Marine 

Corps Commercial and Miscellaneous Payments Processed Through the Deployable Disbursing System,”

January 25, 2010.

3
  DoD Inspector General Audit Report No. D-2010-038, “Identification of Classified Information in an

Unclassified DoD System and an Unsecured DoD Facility,” January 25, 2010 (FOUO).



                                                   1

From FY 2006 through FY 2008, the Army used DDS at disbursing offices located in
Europe, Korea, and Southwest Asia (SWA). These disbursing offices processed
285,926 commercial (contract and vendor) and miscellaneous payments totaling
$13.9 billion through DDS. Miscellaneous payments included condolence, 4 travel, and
military payments. Of the 285,926 DDS payments totaling $13.9 billion, disbursing
personnel in SWA processed at least 115,809 payments, totaling $6.8 billion, through
DDS. Table 1 provides a breakout of commercial and miscellaneous payments processed
through DDS from FY 2006 through FY 2008.

              Table 1. Army Commercial and Miscellaneous Payments

              Processed Through DDS from FY 2006 through FY 2008

       Source/Type of Files      Number of Payments            Value
                                                           (in millions)
    DDS Databases                      272,131               $13,111.6
         Commercial Payments                       211,808                           9,607.7
         Miscellaneous Payments                      60,323                          3,503.9
    Missing DDS Data                                 13,795                            801.3

      Total                                        285,926                        $13,912.9

We performed internal control and data reliability reviews on the 272,131 payments in
the DDS databases; however, we did not determine the validity of an additional
13,795 payments, totaling $801.3 million, because the Army and DDS PMO did not
provide a complete universe of payments to review. 5 See Appendix A for details.

We completed internal control reviews for disbursing offices at 16 Army disbursing
station’s symbol numbers (DSSNs). We visited 7 of the 16 DSSNs: four in Europe, one
in Korea, and two in SWA. In addition, we used a nonstatistical random sample to select
425 out of 211,808 commercial payments to review from 10 of the 16 DSSNs: three
from Europe, one from Korea, and six from SWA.

Army Roles and Responsibilities for Disbursements
The U.S. Army Financial Management Command (USAFMCOM), Indianapolis, Indiana,
is an operational activity for the Assistant Secretary of the Army (Financial Management
and Comptroller). USAFMCOM is the Army approval authority for finance technical
issues and provides technical guidance to the Army Financial Management Centers
(FMCs) in Europe, Korea, and SWA. The FMCs are responsible for management and


4
  DoD Regulation 7000.14-R, “DoD Financial Management Regulation,” defines a condolence payment as

payments to individual civilians for death, injury, or property damage caused by U.S. coalition forces,

generally during combat.

5
  We identified DDS data for 13,523 of the 13,795 missing payments; however, the data were not available

in time for our review.



                                                   2

oversight of internal controls for theater finance operations. They are also the focal point
for all finance-related systems and policy for theater operations.

Army Procurement and Payment Process
The audit trail for the Army procurement and payment process begins with the identified
need for goods or services and the commitment of funds using the Resource Management
Tool; the process ends with a payment from DDS and the transfer of data to the
accounting system, Standard Finance System (STANFINS). When a vendor provides an
invoice, the vendor pay office enters it into the entitlement system, Computerized
Accounts Payable System (CAPS), and generates a voucher from CAPS. When the
certifying official certifies the voucher and supporting documentation, the disbursing
office can make the payment using DDS. The disbursing cycle ends when STANFINS
records and reports the disbursement data. See Appendix C for a flowchart of this
process.

Federal Financial System Requirements
DDS is an integral component of the Army’s financial system (based on the dollar value
of processed transactions). Office of Management and Budget Circular No. A-127,
“Financial Management Systems” (OMB Circular A-127), July 23, 1993, 6 states that a
“financial system” is an information system consisting of applications that collect,
process, maintain, transmit, and report data about financial events.

The Federal Financial Management Improvement Act of 1996 requires that agencies
comply with Federal accounting standards and Federal financial management system
requirements (Federal system requirements). The Office of Federal Financial
Management, Office of Management and Budget, issues the Federal system
requirements. The Office of Federal Financial Management Report
No. OFFM-NO-0106, “Core Financial System Requirements,” January 2006 (Core
Financial System Requirements), presents the functional and technical requirements that
agency financial management systems must meet to comply with the Federal Financial
Management Improvement Act of 1996. These requirements stipulate that systems have
controls over function access (for example, transaction access and authority for approval)
and data access. Inadequate access controls diminish the reliability of computerized data
and increase the risk of destruction or inappropriate disclosure of data.

According to the Core Financial System Requirements, all financial management systems
must have security, internal controls, and accountability built into the processes and must
provide an audit trail. In addition, the financial system must provide automated
functionalities to support the processes for document and transaction control, invoicing,
disbursing, and audit trails.




6
 OMB Circular A-127, July 23, 1993, was the policy in place during our audit. A new version of OMB
Circular A-127, dated January 2009, has since superseded this version.


                                                  3

Internal Controls Over Army Payments
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses for the Army. Army disbursing offices did not have adequate internal
controls over the authorization of payments, separation of duties, DDS access, and
database changes. We also identified potential monetary benefits for duplicate payments,
totaling $162,258, that, if collected, the Government could put to better use. We will
provide a copy of this report to the senior official responsible for internal controls in the
Army.




                                              4

Finding A. Army Needs to Enhance Controls
Over DDS Access and Payment Authorization
Army disbursing personnel at 16 DSSNs did not adequately control access to commercial
and miscellaneous payment data processed through DDS. Specifically, disbursing
personnel used 22 multiple user accounts and 56 generic user accounts to process
$595.6 million in payments; using these accounts bypassed controls and did not allow for
identification of individuals processing payments. In addition, Army disbursing offices
assigned the system administrator privilege to 90 of the 253 individual main site user
accounts. Furthermore, the disbursing offices at the seven DSSNs visited had the
following control deficiencies.

    •	 Two DSSNs did not maintain adequate separation of payment duties.

    •	 Seven DSSNs did not properly restrict access to DDS interface files.

    •	 Six DSSNs did not maintain adequate contingency plans.

In addition, for 334 of the 425 payments reviewed, 7 disbursing offices could not provide
the certifying officer appointment letters; the appointment letter was not signed; or the
appointment letter was not signed by authorized personnel. These deficiencies occurred
because:

    •	 Army FMCs did not have effective control procedures in place for reviewing
       DDS user access or overseeing the DDS payment process, and

    •	 the DDS PMO did not provide sufficient visibility in DDS for management to
       readily review and identify access control weaknesses.

In addition, Army disbursing personnel did not provide proper certifying officer
appointment letters because the FMCs did not have adequate procedures for appointing
certifying officials and maintaining appointment letters.

As a result, the Army is at risk for losing disbursing data, improperly modifying payment
transactions, and unauthorized viewing of personally identifiable or classified
information for 272,131 commercial and miscellaneous payments, totaling $13.1 billion.
In addition, Army officials could not show whom they should hold pecuniarily liable if
the disbursing personnel made improper payments.




7
 We used a nonstatistical random sample to select 425 commercial payments from 211,808 commercial
payments totaling $9.6 billion (Appendix A).



                                                 5

Authorization and Access Requirements for DDS
Legal Requirements for Making Payments
According to section 3325, title 31, United States Code (31 U.S.C. § 3325 [2007]),
Defense agencies, such as the Army, are required to “disburse money only as provided by
a voucher certified by…an officer or employee of the executive agency having written
authorization from the head of the agency to certify vouchers.”

Public Law 107-300, “Improper Payments Information Act of 2002,” section 2, states
that an agency must annually review all programs and activities that it administers and
identify all such programs and activities that may be susceptible to significant improper
payments. This act defines an improper payment as one that should not have been made
or that was made in an incorrect amount under statutory, contractual, administrative, or
other legally applicable requirements. This includes any payment to an ineligible
recipient, ineligible service, duplicate payments, payments for services not received, and
any payment that does not account for credit for applicable discounts.

DoD Guidance for Proper Payment Certifications
DoD Regulation 7000.14-R, “DoD Financial Management Regulation” (DoD FMR)
implements 31 U.S.C. § 3325 (2007) and Federal financial system requirements. The
DoD FMR provides guidance on authorizing and certifying payment vouchers and on the
separation of duties between certifying and disbursing officials. In addition, DoD
Instruction 8500.2, “Information Assurance (IA) Implementation,” February 6, 2003,
states that authorized users access only the data that applies to their authorized privileges.

DoD FMR, volume 5, chapter 33, defines a proper appointment as the completion of a
DD Form 577, “Appointment/Termination Record/Authorized Signature” (appointment
letter). The DD Form 577 must identify the payment type, such as vendor pay, purchase
card, centrally billed accounts, travel, transportation, or civilian pay, for which the head
of the DoD Component appointed the certifying officer.

DoD FMR, volume 5, chapter 21, requires that the original disbursing office records,
including appointments and revocations of accountable individuals, be retained and
readily accessible to the disbursing office or the designated settlement office for a 6-year
3-month period. In addition, the National Archives and Records Administration General
Records Schedule 6, “Accountable Officers’ Accounts Records,” requires the retention of
accountable officer’s files for 6 years and 3 months. This guidance also identifies the
certifying officer as an accountable officer.

System Requirements for Access Controls
The Core Financial System Requirements address access controls. In addition, the
National Institute of Standards and Technology, Federal Information Processing
Standards Publication 200, “Minimum Security Requirements for Federal Information
and Information Systems,” March 9, 2006 (NIST FIPS PUB 200), states that



                                              6

organizations must limit system access to authorized users and must limit authorized user
access to permitted types of transactions and functions. Furthermore, the Government
Accountability Office, “Federal Information System Controls Audit Manual,” January
1999, 8 concludes that access controls should be in place to provide reasonable assurance
that there is protection of computer resources against unauthorized modification,
disclosure, loss, or impairment.

Limiting access helps to ensure that:

    •	 users have only the access needed to perform their duties,

    •	 user access is limited to only a few individuals, and

    •	 users are restricted from performing incompatible functions.

Disbursing Office Personnel Bypassed DDS
Access Controls
Army disbursing offices at 16 DSSNs did not have adequate controls over the access to
commercial and miscellaneous payment data processed through DDS. The disbursing
offices exposed DDS payment information to unauthorized modification, loss, or
disclosure. Specifically, the Army disbursing offices:

    •	 assigned multiple user accounts to
       individual DDS users at 14 DSSNs,                   The disbursing offices exposed
                                                            DDS payment information to
                                                          unauthorized modification, loss,
    •	 created generic user accounts in DDS
       that were not assigned to specific 
                        or disclosure.
       individuals at 16 DSSNs,


    •	 assigned access to system administrator privileges to an excessive number of user
       accounts at 16 DSSNs, and

    •	 did not have procedures implementing DoD requirements for restricting access to
       users with a need-to-know at five DSSNs.

Specifically, disbursing personnel used 22 multiple user accounts and 56 generic user
accounts to process $595.6 million in payments; using these accounts bypassed controls
and did not allow for identification of individuals processing payments. In addition, Army
disbursing offices assigned the system administrator privilege to 90 of the 253 individual
main site user accounts.




8
 The “Federal Information System Controls Audit Manual” was revised in February 2009; however, the
January 1999 version applied to the scope of our audit of FY 2006 through 2008 U.S. Army DDS data.


                                                 7

Disbursing Offices Assigned Multiple User Accounts
Army disbursing offices circumvented DDS controls by assigning multiple user accounts
to 859 individuals who used DDS (Table 2) at 14 DSSNs. An individual with multiple
user accounts can access several privileges in DDS that are not available to a single user
account. A privilege allows a user to perform assigned disbursing functions in DDS.
These privileges include system administrator, accounting, payment certification, check
printing, and voucher input. In addition, this individual has the ability to bypass
separation of duties to process payments.

Of the 859 individuals with multiple user accounts, 22 processed 1,645 payments for
approximately $115.8 million by using the multiple accounts. For example, one
individual from DSSN 5499 (Europe theater) processed 1,207 payments for $87.5 million
with multiple user accounts.

      Table 2. Army Multiple User Accounts from FY 2006 through FY 2008
    Theater     Number of Multiple User       Number of          Value
                       Accounts               Payments       (in millions)
                 Created       Used           Processed

 Europe                 172            11             1,401                $88.0
 Korea                    29            0                  0                  0.0
 SWA                    658            11               244                  27.7
    Total               859            22             1,645               $115.8*
 *The difference is due to rounding.


By creating multiple user accounts in DDS, the Army disbursing offices circumvented
DDS controls that reduce the risk of using one user account to process a payment from
beginning to end. The DDS controls limit the types of privileges assigned to a single user
account and do not allow for incompatible privileges. However, the user account list,
which provides the user’s name, identification, and outstanding fund balance, did not
reflect the system privileges assigned to the user. Because DDS did not provide this
visibility of user privileges, Army management could not readily identify incompatible
privileges in reviewing DDS for multiple user accounts. In response to our identification
of this issue, the DDS PMO modified DDS to display privileges assigned to each
individual on the user list. As a result, we are not making a recommendation on this
issue.

Army FMCs did not have adequate control procedures in place for reviewing DDS user
access or overseeing the DDS payment process. According to the European FMC’s
internal control procedures, FMC’s internal control personnel review the individual
DSSNs to ensure that disbursing personnel review system access controls. Two DSSNs
in the Europe FMC provided evidence of reviews over DDS access. The Korea and
SWA FMCs’ disbursing offices did not include a review of DDS system access controls.


                                            8

Therefore, USAFMCOM should instruct the FMCs to standardize reviews of DDS user
account lists and monitor user access. This oversight review should:

   •	 include a review for multiple user accounts and privileges,

   •	 eliminate the use of multiple user accounts, except for rare mission critical 

      situations with written justification, and 


   •	 reduce the risk of misuse of these accounts and privileges.

Generic User Accounts Allowed Access Without Identification
Army disbursing offices at 16 DSSNs established 1,062 generic user accounts that
allowed individuals access to DDS without identification of who processed payments in
DDS (Table 3). Of the 1,062 generic user accounts, Army disbursing personnel used
56 generic user accounts to process 10,077 payments in DDS for $479.8 million. Generic
user accounts in DDS are not specific to an individual. For example, we identified user
accounts assigned to the following user names: CASHER CASHER and CASHIER
CASHIER. Army disbursing personnel used the generic user account, CASHER
CASHER, from DSSN 5579 (SWA theater) to process 7,280 payments for $353.6 million
in DDS.

       Table 3. Army Generic User Accounts from FY 2006 through 2008
  Theater       Number of Generic User         Number of          Value
                       Accounts                Payments       (in millions)
                Created         Used           Processed

 Europe                 111                      17           759                 $44.9
 Korea                    13                      1              5                  0.0*
 SWA                    938                      38         9,313                  434.9

   Total              1,062                      56         10,077               $479.8
 *The total of these five payments was $2,068.


The electronic signature block in the DDS user setup screen does not require the system
administrator to input the position title of the disbursing personnel that corresponds to the
position on the appointment letter, such as deputy disbursing officer, cashier, or
accountant while assigning user accounts. Requiring the system administrator to select a
position title that corresponds to an appointment letter when creating a DDS user account
would mitigate the risk of creating a generic user account. In the DoD Inspector General
Audit Report No. D-2010-037, “Internal Controls Over United States Marine Corps
Commercial and Miscellaneous Payments Processed Through the Deployable Disbursing
System,” January 25, 2010, we recommended that DFAS update the DDS signature block
to require the system administrator to enter the disbursing office position title that
correlates to the individual appointment letters. In response to our recommendation,


                                                      9

DDS PMO modified DDS to produce an electronic appointment letter that should ensure
proper correlation in DDS between disbursing officer position and appointment letter. As
a result, we are not making any additional recommendations on this issue.

Army FMCs did not have adequate control procedures in place for reviewing DDS user
access or overseeing the DDS payment process. USAFMCOM should instruct the FMCs
to establish standardized procedures addressing the review of DDS user account lists and
monitor user access. The oversight review should:

    • identify generic user accounts and privileges, if any,

    • eliminate the use of generic user accounts, and

    • reduce the risk of misusing user accounts and privileges.

Army disbursing offices should periodically review the DDS user account list for
multiple and generic user accounts. To verify that the Army disbursing offices properly
paid the 1,645 and 10,077 payments processed by multiple and generic user accounts,
USAFMCOM and Army FMCs should review the payments. In addition, USAFMCOM
and Army FMCs should review disbursing personnel using the multiple and generic user
accounts and, as appropriate, initiate administrative action against the appropriate
personnel associated with these accounts.

System Administrator Access Assigned to Numerous Users
Army disbursing officials assigned the system administrator privilege to a large number
of user accounts even though this privilege allows users to manipulate DDS user access
and payment data and to view personally identifiable information. Specifically, Army
disbursing offices at 16 DSSNs assigned the system administrator privilege to
90 (36 percent) of the 253 individual main site user accounts in DDS. This privilege
allowed the user to access the user setup screen, which included Privacy Act personally
identifiable information of DDS users, such as social security number and name. The
system administrator privilege also allowed the user to:

   •   manipulate DDS payment data,

   •   grant or deny user access by creating user accounts,

   •   update user accounts,

   •   assign access privileges,

   •   reset passwords,

   •   activate or deactivate accounts,




                                           10

   •   back out payments already certified or paid, and

   •   archive and purge data.

Table 4 illustrates, by theater, the number of disbursing station users assigned the system
administrator privilege.

  Table 4. Army System Administrator Privilege from FY 2006 through FY 2008
        Theater           Number of       Number of User       Percent of
                          Disbursing       Accounts With     User Accounts
                         Station User          System         With System
                           Accounts        Administrator     Administrator
                                              Privilege         Privilege
 Europe                     118                   42                36
 Korea                             28                      9                   32
 SWA                              107                     39                   36

   Total and Percent              253                     90                   36

Army disbursing personnel stated that they needed to assign the system administrator
privilege to DDS users so they could back out payments in DDS. Army disbursing
offices should assign the system administrator privilege to only a minimum number of
user accounts. Army FMCs did not have control procedures for Army disbursing
personnel to review DDS user access and to document and monitor the assignment of the
system administrator privilege to DDS users. As part of the Army oversight function,
USAFMCOM should instruct the FMCs to develop standardized procedures, such as
reviewing DDS user access privileges, to restrict this level of access to a minimum
number of users as necessary.

Army Needs to Follow DoD Requirements for Restricting Access
Army disbursing offices did not document DDS users’ security clearances, need-to-know,
and information assurance responsibilities when granting access to DDS. Army
disbursing offices did not follow DoD Instruction 8500.2, “Information Assurance (IA)
Implementation,” February 6, 2003, for restricting access to users with a need-to-know.
Only users with a need-to-know should access the system because DDS maintained
personally identifiable information such as name, social security number, or personal
information that linked to an individual’s identity. DoD Instruction 8500.2 requires that
each information assurance officer ensure that all users have the requisite security
clearances and supervisory need-to-know authorization and are aware of their
information assurance responsibilities before granting access to DoD information
systems,. Army disbursing offices should limit access to users with a need-to-know to
provide reasonable assurance that they are protecting computer resources against
unauthorized modification, disclosure, loss, or impairment.



                                            11

Of the seven DSSNs we visited, five did not have standard procedures requiring the
Army to comply with DoD Instruction 8500.2. The remaining two DSSNs documented
in their standard procedures a formal process for granting DDS access, such as
completing the DD Form 2875 “System Authorization Access Request”
(DD Form 2875). These DSSNs used DD Form 2875 to record names, signatures, and
social security numbers for validating the trustworthiness of individuals requesting access
to DoD systems and information. The form specified the authorized level of system
access for an individual. In addition, these two DSSNs also implemented local guidance
to review DDS on a regular basis to ensure user access and privileges are consistent with
the DD Forms 2875. This will assist in ensuring the privileges assigned to the user are
consistent with their roles and responsibilities in DDS.

Although DoD provides DD Form 2875 to ensure all DDS users meet the DoD
information assurance requirements before granting access to a DoD system, Army
disbursing offices did not require the form for users to access DDS. To ensure that only
individuals with a need-to-know access DDS at all Army disbursing offices,
USAFMCOM should require the FMCs to either use the DD Form 2875 or another
method that ensures users’ security clearances, need-to-know, and awareness of
information assurance responsibilities are consistent with their DDS privileges.

DDS PMO Took Action to Address Previous Recommendations
DoD Inspector General Report No. D-2010-037, 

“Internal Controls Over United States Marine            DFAS management agreed to 

Corps Commercial and Miscellaneous Payments               our recommendations, and
Processed Through the Deployable Disbursing           DDS    PMO personnel addressed
System,” January 25, 2010, recommended that              the changes to DDS through
DFAS management address modifications to DDS               system change requests.
that would assist the U.S. Marine Corps in
reviewing for and monitoring the use of multiple, generic, and system administrator
accounts. DFAS management agreed to our recommendations, and DDS PMO personnel
addressed the changes to DDS through system change requests. As of September 20,
2010, DDS PMO personnel modified DDS to produce an electronic DD Form 577,
“Appointment/Termination Record,” and display the privileges assigned to each
individual on the user report.

Procedures Need to be Established to Ensure
Separation of Duties
The disbursing offices at two of the seven DSSNs visited did not establish procedures to
ensure adequate separation of duties:

   •	 Finance office personnel at DSSN 8763 (Europe theater) in Kosovo had the
      capability to enter transactions into CAPS and make payments through DDS, and
      a disbursing officer certified and disbursed funds; and




                                            12

   •	 a disbursing officer at DSSN 5579 (SWA theater) inappropriately appointed
      certifying officials.

In addition, the lack of separation of duties between Army contracting and paying
activities led to the opportunity for stealing Government funds.

Finance Office Personnel Entered Entitlements and Made the
Payments
An Army finance office did not comply with the DoD FMR in separating the duties of
recording transactions and making payments. Army officials at DSSN 8763 allowed the
same individuals in the finance office to maintain the ability to record transactions into
CAPS and make payments from DDS. DoD FMR, volume 5, chapter 1, states that
separate individuals are required to perform each step in the disbursing process, such as:

    •	 authorizing, approving, and recording transactions;

    •	 issuing or receiving assets; and

    •	 making payments.

Because finance office personnel had the ability to access payments in CAPS, Army
procedures should prohibit them from processing disbursements out of DDS.

Disbursing Officer Certified a Payment
The disbursing officer at DSSN 8763 certified one commercial payment processed from
CAPS through DDS. DoD FMR, volume 5, chapter 33, states that a disbursing officer is
not eligible for appointment as a certifying officer and may not appoint a certifying
officer. Therefore, disbursing officers should not sign vouchers as certifying officers.

Disbursing Officer Appointed Certifying Officers
The disbursing officer at DSSN 5579 appointed four certifying officers who certified
10 commercial payments. DoD FMR, volume 5, chapter 33, states that a disbursing
officer may not appoint a certifying officer. However, current Army guidance allows the
appointment of commanding officers as disbursing officers. Individuals that are dual-
appointed as disbursing officers and commanding officers have the ability to appoint
certifying officers. This ability for dual-appointed officers to appoint certifying officers
conflicts with the DoD FMR policy restricting disbursing officers from appointing
certifying officers.




                                            13

Contracting Representative Stole Government Funds
We assisted Defense Criminal Investigative Service on a case that involved a theft of
$690,000 in Commander’s Emergency Response Program funds. The lack of separation
of duties between Army contracting and paying
                                                     The lack of separation of duties
activities, such as an Army contracting
                                                      between Army contracting and
representative who also performed payment
                                                       paying activities…led to the
functions, led to the opportunity for stealing
                                                         opportunity for stealing
Government funds. These activities included
                                                            Government funds.
creating questionable contracts and making the
payments associated with those contracts. If the Army had sufficient controls in place to
prevent the contracting representative from performing both contracting and payment
activities, it may have prevented the theft of Government funds. On December 7, 2009,
this Army contracting representative pled guilty to money laundering and stealing
Government funds.

In addition, the Army paying agents who gave the Commander’s Emergency Response
Program funds to the Army contracting representative neglected their duties. The paying
agents were legally responsible for those funds as the paying agent appointment letter
specifically states, “funds will not be entrusted to others.” The contracting representative
paid out $4.5 million in funds provided by the paying agents. USAFMCOM should work
with U.S. Central Command to order an Army Regulation 15-6, “Procedures for
Investigating Officers and Board of Officers,” investigation of the two Army paying
agents’ activities and, based on the investigation results, initiate appropriate criminal,
civil, or administrative actions. We are conducting an audit to review controls over
Commander’s Emergency Response Program payments made in Afghanistan.

USAFMCOM Should Implement Policy to Improve Separation of
Duties
The Deputy Assistant Secretary of the Army (Financial Operations) established policy on
June 26, 2009, that states that Commands, with subordinate activities performing
disbursing operations, should regularly review disbursing and entitlement systems’ access
profiles to ensure appropriate separation of duties. USAFMCOM provided evidence that
Army disbursing offices performed reviews of disbursing system access profiles.
However, these reviews did not indicate whether there was proper separation of duties
between users of the entitlement and disbursing systems. Therefore, USAFMCOM
should require that Army finance offices perform periodic reviews of access profiles to
ensure proper separation of duties between users of the entitlement and disbursing
systems. In addition, USAFMCOM needs to issue guidance clarifying that those
individuals who are dually appointed as disbursing officers and commanding officers
cannot appoint certifying officers. USAFMCOM should require all FMCs to certify
payments in accordance with DoD FMR.




                                            14

Disbursing Offices Need to Use Interfaces Properly
Army disbursing offices did not implement an interface strategy or interface-processing

procedure ensuring proper restriction to access interface data and processes. 

The seven DSSNs visited either did not use the interfaces with DDS or manually

manipulated the DDS interface files.


     •	 DSSN 8763 (Europe theater) did not use the CAPS interface to process
        payments with DDS.

     •	 DSSN 6335 (Europe theater) did not use the STANFINS interface to pass
        accounting information from DDS to STANFINS.

     •	 Six of the seven DSSNs adjusted data in the accounting interface file before
        submitting it for upload into STANFINS.

 Controls over the use of DDS and its interfacing systems were not adequate and allowed
 Army disbursing personnel to manually intervene with the processing of the interfaces.
 Therefore, the data between the systems may not match, and there may not be a
 transparent audit trail between the interfacing systems. USAFMCOM should require all
 FMCs to limit access to interface data and processes to personnel responsible for
 processing interface files. See Finding B for further detail on Army disbursing offices’
 use of DDS interfaces with CAPS and STANFINS.

Army Needs to Develop Contingency Plans
Six of the seven DSSNs visited did not maintain adequate continuity of operations plans
(COOP) for DDS. A COOP establishes procedures necessary to ensure uninterrupted,
essential functions across a wide range of potential emergencies, including localized acts
of nature, accidents, and technological or attack-related emergencies.

Army FMCs did not ensure the Army maintained an adequate COOP for six of the
seven DSSNs. The NIST FIPS PUB 200 states that, “organizations must establish,
maintain, and effectively implement plans for emergency response, backup operations,
and post-disaster recovery for organizational information systems to ensure the
availability of critical information resources and continuity of operations in emergency
situations.” In addition, Army Regulation 500-3, “U.S. Army Continuity of Operations
Program Policy and Planning,” April 2008, states that Commanders or senior Army
officials will ensure their subordinate organizations or activities develop and maintain
their own supporting COOP procedures. The Government Accountability Office,
“Federal Information System Controls Audit Manual,” also provides that organizations
develop and document an application contingency plan as part of control activities.

DSSN 6411 (Korea theater) was the only disbursing office that had an adequate COOP in
place. The COOP included DDS as a “Priority 1” system that needs to be operational
within 24 hours of COOP activation. Disbursing offices for three of the four DSSNs in
the Europe theater maintained a COOP, but the plans were outdated or did not


                                            15

specifically address DDS. The DSSNs in the SWA theater did not maintain a COOP.
Because the Army FMCs did not ensure all disbursing offices using DDS had a COOP,
the Army did not comply with NIST FIPS PUB 200 requirements and Army regulations.
USAFMCOM should require all DSSNs using DDS to develop and implement an
adequate COOP.

Army Needs to Maintain Certifying Officer
Appointment Letters
Army disbursing offices did not maintain
proper certifying officer appointment letters        Having properly appointed officers
for personnel who certified payments in our          certify that a voucher is ready for
sample. We used a nonstatistical random             payment is a critical internal control
sample to select 425 payments, obtained                function that the Army needs to
from 10 DSSNs in the Europe, Korea, and                  ensure a payment is proper.
SWA theaters, from 211,808 commercial
payments, totaling $9.6 billion, paid in FY 2006 through 2008 (Appendix A). For 334 of
the 425 sample payments, Army disbursing offices did not maintain proper certifying
officer appointment letters for personnel who certified vouchers. Having properly
appointed officers certify that a voucher is ready for payment is a critical internal control
function that the Army needs to ensure a payment is proper. We did not identify issues
with the appointment letters for the certifying officers who were appointed at the time of
our visits to the Europe and Korea DSSNs. Table 5 shows a breakout of the results of our
request for certifying officer appointment letters by theater and number of payments
affected.

            Table 5. Results of Review for Proper Payment Authorization

                Results                    Europe       Korea         SWA          Total

 Inadequate Support for Proper
                                               61          130          143          334
 Authorization Provided
   Payments Certified ­
                                               53          130          114          297
   Appointment Letter Not Provided
   Payments Certified - by
                                                   1         0           27           28
   Unauthorized Personnel
   Payments Not Certified –
                                                   7         0            2            9
   Appointment Letter Not Signed
 Payments Certified – Proper
                                               89            0            2           91
 Authorization Provided
 Total Payments Reviewed for
                                              150          130          145          425
 Proper Authorization




                                             16

Certifying Officer Appointment Letters Not Available
Army disbursing offices did not provide certifying officer appointment letters for
individuals who certified 297 of the sample payments, totaling $8.7 million, from
eight DSSNs. Personnel at DSSN 6411 (Korea theater) stated that they destroyed
certifying officer appointment letters upon terminating appointments. Personnel at
DSSN 8547 (SWA theater) forwarded the documents to a storage facility; however, the
storage facility personnel could not locate the requested documents. Army disbursing
personnel did not explain why the remaining six DSSNs in the European and SWA
theater did not provide certifying officer appointment letters.

Unauthorized Personnel Certified Payments
Army disbursing personnel from DSSNs 8763 (Europe theater), 5579, 5588, 8549, and
8589 (SWA theater) did not properly authorize 28 of the sample payments, totaling
$500,000. The appointment letters for the certifying officers who certified these
28 sample payments included authorizations for disbursing personnel to certify military
pay, but not commercial payments, and letters that were not officially signed. In other
appointment letters, disbursing officers had improperly appointed certifying officers. For
example, a disbursing officer appointed four certifying officers using a memorandum for
record; however, the DoD FMR volume 5, chapter 33, requires a DD Form 577,
“Appointment/Termination Record/Authorized Signature,” to appoint a certifying officer.

Payments Were Not Certified and Not Authorized
Army disbursing personnel did not certify nine of the sample payments, totaling $31,236.
We obtained the uncertified payments from DSSNs 5499, 6335, 8763 (Europe theater),
5579, and 8547 (SWA theater). According to DoD FMR, volume 5, chapter 33, the
payments are unauthorized unless signed by an authorized certifying officer.

Disbursing Offices Provided Proper Certifying Officer
Appointment Letters
Army disbursing offices provided proper certifying officer appointment letters for the
individuals who certified 91 of the sample payments, totaling $1.3 million. We obtained
appointment letters for those who certified 89 of the payments for two European DSSNs
where the appointed individuals who signed the vouchers were still serving as certifying
officers during the audit. Although we received those appointment letters, these DSSNs
did not retain appointment letters for previous certifying officers.

Army FMCs Need to Improve Certifying Officer
Appointment Procedures
The Army FMCs did not support the proper certification of 334 of the 425 sample
commercial payments obtained from the 10 DSSNs reviewed for certifying officer
appointment letters. Army did not comply with 31 U.S.C. § 3325 (2007) and DoD FMR,
volume 5, chapters 21 and 33, for document retention and written authorization for
certifying vouchers. Without certifying officer appointment letters, auditors and
reviewers cannot determine whether the certifying officers properly reviewed the


                                           17

commercial payments or who the Army should hold pecuniarily liable if the Army made
improper payments. Therefore, USAFMCOM should require the FMCs to certify
vouchers and retain documents in accordance with 31 U.S.C. § 3325 (2007) and
DoD FMR, volume 5, chapters 21 and 33.

Internal Control Weaknesses Affected Payment Data
and Security
Gaps in Army FMC and disbursing office internal controls over system access, separation
of duties, data protection, contingency plans, and payment authorizations place payments
at increased risk for lost disbursing data, unauthorized modification of transactions,
improper payments, unauthorized viewing of personally identifiable or classified
information. Army disbursing personnel made duplicate payments and processed
classified information through DDS.

Army Personnel Made Duplicate Payments to Vendors
Because of the gaps in Army FMC and disbursing office controls, disbursing personnel
made nine duplicate payments, totaling $162,258, to vendors for goods or services and
did not collect on these improper payments. We referred two of the duplicate payments
to the Defense Criminal Investigative Service because of the suspicious and potentially
fraudulent nature of the payments. USAFMCOM should review the remaining seven
duplicate payments, collect the overpayments, and determine whether to proceed with
administrative action against the personnel responsible for the duplicate payments. If the
Army collects these duplicate payments, the Government can put the funds to better use.

Unauthorized Access to Personally Identifiable or Classified
Information in DDS
Gaps in internal controls over system access could cause personnel without a need-to­
know to gain unauthorized access to personally identifiable or classified information in
DDS. We disclosed the presence of classified information in DoD Inspector General
Report No. D-2010-038, “Identification of Classified Information in an Unclassified DoD
System and an Unsecured DoD Facility,” January 25, 2010 (For Official Use Only).
Specifically, Army disbursing personnel processed 655 payments that contained
classified information in DDS, an unclassified DoD system. The Army corrected these
issues through implementing the recommendations identified in that report.

Conclusion
Army disbursing offices circumvented internal controls for access to DDS information,
did not properly separate certifying and disbursing duties when making payments, and
did not comply with regulations when supporting certifying officer appointments. In
addition, Army FMCs did not ensure that the disbursing offices maintained plans for
protecting data.

Army FMC officials need to strengthen their control procedures and management
oversight of disbursing offices to prevent disbursing personnel from making unauthorized
and improper payments. These procedures should address the disbursement process to


                                            18

ensure disbursing personnel are making payments in accordance with legal and
DoD FMR requirements. At a minimum, these procedures should address:

   •	 eliminating the use of multiple user accounts and requiring written justification
      when multiple user accounts are needed,

   •	 eliminating the use of generic user accounts,

   •	 minimizing number of users with the system administrator privilege,

   •	 requiring proper voucher certification, and

   •	 separating voucher certification and payment functions.

Because of these control deficiencies, the Assistant Secretary of the Army (Financial
Management and Comptroller) should establish a standardized control process for the
FMCs to use in examining the listed control procedures. DoD depends on responsible
officials to make payments and to oversee the disbursement of Government funds.
Strong internal controls over the disbursing operations are critical to reducing the risk of
improper payments or fraudulent activity.

Recommendations, Management Comments, and
Our Response
A. We recommend that the Deputy Assistant Secretary of the Army (Financial
Operations):

       1. Instruct the Financial Management Centers to establish procedures
requiring Army disbursing offices to:

              a. Eliminate the use of multiple user accounts in the Deployable
Disbursing System and require justification for rare circumstances when multiple
users are necessary.

             b. Eliminate the use of generic user accounts in the Deployable
Disbursing System.

               c. Minimize the number of users with the system administrator
privilege.

             d. Use the System Authorization Access Request form or another
method for verifying security clearances, need-to-know, and awareness of
information assurance responsibilities in granting access to users of the Deployable
Disbursing System.




                                             19

               e. Review the Deployable Disbursing System user account lists
periodically for the use of multiple and generic user accounts and monitor user
access.

             f. Maintain certifying officer appointment letters in accordance with
DoD Regulation 7000.14-R, “DoD Financial Management Regulation,”
volume 5, chapter 21.

              g. Ensure access to interface data and processes is limited to
personnel responsible for processing interface files.

              h. Maintain adequate continuity of operations plans in accordance
with the National Institute of Standards and Technology, Federal Information
Processing Standards Publication 200 and Army Regulation 500-3.

       2. Instruct Financial Management Centers to establish procedures requiring
the:

             a. Appointment of certifying officers in accordance with
requirements of section 3325, title 31, United States Code, and DoD Regulation
7000.14-R, “DoD Financial Management Regulation,” volume 5, chapter 33.

              b. Performance of periodic reviews of access profiles to ensure proper
separation of duties between users of the entitlement and disbursing systems.

Department of the Army Comments
The Deputy Assistant Secretary of the Army (Financial Operations) (DASA-FO) agreed
with Recommendations A.1 and A.2 and stated that he has addressed each of these issues
in his memorandum, “Army Disbursing and Entitlement Systems Controls,”
June 6, 2011.

      3. Establish a standardized control process for the Financial Management
Centers to use in examining control procedures implemented in Recommendations
A.1 and A.2.

Department of the Army Comments
The DASA-FO agreed and stated that the Army would establish a standardized control
process for the FMCs to use in examining control procedures implemented in
Recommendations A.1 and A.2. On August 2, 2011, USAFMCOM provided an updated
internal control checklist incorporating the results of the audit.

       4. Review the payments processed using multiple and generic user accounts
to ensure the payments were proper.




                                          20

Department of the Army Comments
The DASA-FO agreed and stated that the Army would review the payments processed
using multiple and generic user accounts. He stated that the Special Inspector General
for Iraq has performed reviews and continues to do work in this area. In addition, he
requested that the Army Audit Agency conduct a theater-wide audit of commercial
payments emphasizing payments processed in DDS with generic user identification.
Finally, he stated that his office would analyze results of the audit findings of the Special
Inspector General for Iraq and the Army Audit Agency to determine the level of further
review required to ensure the propriety of these payments.

        5. Review disbursing personnel using multiple and generic user accounts
and, if improper payments are associated with these accounts, take administrative
action against the personnel using those accounts.

Department of the Army Comments
The DASA-FO agreed and stated that the Army would take appropriate action in
accordance with Army Regulation 15-6 and DoD FMR, volume 5, in situations where the
Army identifies an erroneous payment resulting from misusing multiple and generic user
accounts.

       6. Coordinate with U.S. Central Command to conduct an investigation as
described in Army Regulation 15-6, “Procedures for Investigating Officers and
Board of Officers,” for the activities of the two Army paying agents and, based on
the results of the investigation, initiate appropriate criminal, civil, or administrative
actions.

Department of the Army Comments
The DASA-FO agreed and stated that he has requested copies of the investigation
initiated by the Multi-National Corps-Iraq into the theft of Commander’s Emergency
Response Program Funds by an Army captain. Upon review of this investigation report,
and in coordination with the DFAS legal staff, deficiencies would be provided to the
command for correction and further disciplinary action, as applicable.

       7. Review the seven of the nine duplicate payments, totaling $162,258, collect
the overpayments, and determine whether the Army should take administrative
action against those responsible for the duplicate payments.

Department of the Army Comments
The DASA-FO agreed and stated that as of June 10, 2011, $75,864.06 of the duplicate
payments has been collected. The other $20,910 is being pursued and he anticipates its
successful collection. The balance of $65,483.94 paid to one contractor is under
investigation. For overpayments that cannot be collected, he stated he would direct an
investigation by the appropriate command in accordance with DoD FMR, volume 5, to
determine liability for uncollectable balances and appropriate administrative action. In




                                             21

addition, USAFMCOM agreed with the potential monetary benefits associated with these
duplicate payments.

Our Response
The DASA-FO comments on Recommendations A.1.a through A.7 were responsive and
the actions met the intent of the recommendations.




                                         22

Finding B. Army’s Financial System Did Not
Maintain Reliable Payment Data
The Army’s financial system, including CAPS, DDS, and STANFINS, did not maintain
accurate or complete information. Specifically, out of the 402 commercial payments 9
that we nonstatistically sampled from 211,808 payments (totaling $9.6 billion) in DDS,
the financial system did not maintain:

•	 accurate line of accounting (LOA) information for 296 payments;

•	 accurate payment method information for 140 payments; and

•	 complete fundamental payment information, such as invoice line item information 10
   for 370 payments, contract or requisition number for 54 payments, invoice received
   date for 48 payments, and invoice number for 30 payments.

The financial system did not maintain accurate or complete information because Army
finance offices did not properly use DDS interfaces. Further, the Assistant Secretary of
the Army (Financial Management and Comptroller) and Director, DFAS (Information
and Technology), did not develop systems within Army’s financial system, including
DDS, with sufficient functionality to:

•	 provide the ability to make foreign currency electronic funds transfer (EFT) payments
   using DDS, and

•	 comply with the Core Financial System Requirements in requiring fundamental
   payment information.

Also, the Army disbursing offices could not provide a complete universe of commercial
payments made through DDS. This occurred because the Army’s financial system did
not maintain a centralized database of DDS payment transactions.

Without accurate and complete data, DoD cannot maintain complete and documented
audit trails, which are necessary to demonstrate the accuracy, completeness, and
timeliness of transactions. Furthermore, DoD funds are at increased risk for improper
payments.




9
  We did not review 23 of the 425 sample commercial payments for data reliability based on the hardcopy
documentation because they represented Government Purchase Card payments for which visited Army
disbursing offices did not maintain the supporting documentation.
10
   Invoice line items are document line items from an invoice, an itemized list of supplies delivered or
services performed.


                                                   23 

Data Reliability Requirements for DDS
The Core Financial System Requirements state that audit trails are essential to providing
support and must exist for recorded transactions. In addition, the Government
Accountability Office has provided guidance related to data reliability. Government
Accountability Office Report No. GAO-03-273G, “Assessing the Reliability of
Computer-Processed Data,” October 2002, states that data are reliable when they are:

   •	 accurate (they reflect the data entered at the source or, if available, in the source
      documents), and

   •	 complete (they contain all of the data elements and records needed for the
      review).

DoD FMR, volume 6A, chapter 2, requires that DoD Components, including the Army
and DFAS, maintain complete and documented audit trails. Audit trails enable tracing a
transaction from the manual vouchers and supporting documentation to the financial
statements. According to the DoD FMR, this is necessary to demonstrate the accuracy,
completeness, and timeliness of a transaction. This is also necessary to provide
documentary support, if required, for all data generated by the Army and submitted to
DFAS for recording in the accounting systems and for using in financial reports. In
addition, the DoD FMR requires that agencies code each charge to an appropriation or
fund with a complete accounting classification and country code, when applicable.

Army’s Financial System Needs to Maintain Accurate
and Complete Payment Information
The data in the Army’s financial system were inaccurate or incomplete when compared
to the supporting documentation or to data in interfacing systems for 402 commercial
payments. To determine data reliability, we reviewed a nonstatistical random sample,
obtained from 10 DSSNs, of 402 Army commercial
payments out of 211,808 (totaling $10.5 million of         …the Assistant Secretary of
$9.6 billion), from FY 2006 through 2008                       the Army (Financial
commercial DDS payments                                          Management and
(see Appendix A). The Army’s financial system                  Comptroller) and the
maintained inaccurate and incomplete data because                 Director, DFAS
Army disbursing offices did not properly use DDS                 (Information and
interface capabilities and the Assistant Secretary of     Technology),    did not develop
the Army (Financial Management and Comptroller)               systems within Army’s
and the Director, DFAS (Information and                    financial  system, including
Technology), did not develop systems within Army’s             DDS, with sufficient
financial system, including DDS, with sufficient                   functionality...
functionality to:

   •   require the input of fundamental commercial payment information and

   •   provide the ability to disburse EFT payments in foreign currencies.


                                             24 

Because of the inaccurate and incomplete data, the Army’s financial system did not
provide a transparent audit trail for required data elements in the payments processed
through the Army’s financial system that includes CAPS, DDS, and STANFINS.

DDS Interface Capabilities Need to Be Used Properly
Army disbursing personnel did not properly use DDS interfaces. The Army processed
commercial payments through its financial system, which included the entitlement
system, CAPS; the disbursing system, DDS; and the accounting system, STANFINS.
Although CAPS and STANFINS interface directly with DDS, three of the seven Army
DSSNs visited did not use either the CAPS or STANFINS interfaces to process
payments; six of the seven DSSNs manipulated the STANFINS interface files when
processing payments.

The DoD FMR states that audit trails are necessary to demonstrate the accuracy and
completeness of a transaction. In addition, the Core Financial System Requirements state
that core financial systems must provide automated functionality to generate an audit trail
of all accounting classification 11 additions, changes, and deactivations, including
effective dates of the changes. Furthermore, OMB Circular A-127 states that financial
system designs must eliminate unnecessary duplication of transaction entry. Wherever
appropriate, users should enter only once the data needed by the systems to support
financial functions and data in other parts of the system should electronically update,
consistent with the timing requirements of normal business or transaction cycles.

DSSNs Did Not Use Interfaces Appropriately to Process Payments
Although the capability existed for DDS to interface with CAPS and STANFINS,
personnel at three of the seven Army DSSNs did not use the interfaces appropriately
when processing payments. For example, Army personnel from DSSN 6335 (Europe
theater) indicated that they did not use the STANFINS interface file because it does not
separate the LOA information for multiple accounting sites. DSSN 6335 personnel
explained that because they disburse funds for multiple fiscal stations, they use a manual
process to ensure that they assign the LOAs to the respective accounting site. The
DDS PMO, however, stated that DDS has the capability to process information when
disbursing funds for multiple fiscal stations and that Army personnel at DSSN 6335
should be able to use the interface. The manual process is inefficient and creates the
opportunity for human error, lack of audit trail, and the possibility of duplicate payments.
USAFMCOM should require the FMCs to use the DDS interface with STANFINS to
minimize the manually entered data, ensure a complete audit trail, and comply with
OMB Circular A-127.

Army disbursing personnel processed 76 payments, totaling $1.4 million, of the
402 sample payments, without using the CAPS-to-DDS interface. For example, Army



11
 The accounting classification process categorizes financial information using elements such as Treasury
Account Symbol, fiscal year, fund code, and organization.


                                                   25 

personnel from DSSN 8763 explained that they did not use the CAPS interface because
training officials told them that the CAPS interface did not work. Army personnel from
DSSN 5579 manually entered CAPS payment information into DDS. Since our site
visits, personnel at both DSSNs 8763 and 5579 have taken action to use the
CAPS-to-DDS interface.

Disbursing Offices Need to Maintain Interface File Integrity
Army disbursing offices did not maintain the integrity of the STANFINS interface files.
Army disbursing personnel adjusted the DDS payment data in the STANFINS interface.
However, because DDS does not generate an audit trail of changes to the accounting
classification, the interfaces with DDS must maintain their integrity for the audit trail to
remain intact. Therefore, when Army disbursing personnel made changes to the
STANFINS interface file, DDS did not reflect the changes.

Army disbursing personnel processed 296 of
the 402 sample payments in which the LOAs            Army disbursing personnel
in DDS did not reconcile to the STANFINS          processed 296 of the 402 sample
LOAs; therefore, there is not a transparent        payments in which the LOAs in
audit trail between the two systems. In             DDS did not reconcile to the
addition, personnel at six of the seven Army            STANFINS LOAs…
DSSNs manually adjusted the LOA
information in the STANFINS interface file before submitting it to STANFINS. Of the
six DSSNs that manually adjusted the LOA information, four maintained inadequate
procedures for the changes made to the STANFINS interface files. These procedures did
not identify the data elements Army disbursing personnel changed before completing the
STANFINS interface. The remaining two DSSNs did not maintain any procedures for
the changes made to the STANFINS interface file. In addition, these six DSSNs did not
maintain procedures on recording the changes made to the STANFINS interface file in
the original supporting documentation. To maintain a transparent audit trail in the
STANFINS interface files, USAFMCOM should require the FMCs to develop
procedures for making necessary changes and recording the changes in the original
supporting documentation.

DDS Interface with CAPS Did Not Always Provide an Audit Trail
DFAS personnel were unable to provide an audit trail for 125 CAPS payments, totaling
$1.9 million, of the 425 sample payments. 12 We provided the DDS payment information
for the 125 payments to DFAS personnel to locate the corresponding CAPS data.
However, DFAS personnel were not able to provide corresponding CAPS data. Army
and DFAS personnel explained that it is possible the data were not available because
Army personnel did not use the DDS and CAPS interface and did not update the payment




12
     We reviewed all 425 sample payments for audit trail completeness.


                                                     26 

information in CAPS. Therefore, we were unable to verify whether the DDS interface
with CAPS provided a complete audit trail for these 125 unmatched payments.
USAFMCOM should review the CAPS and DDS data for completeness to ensure a
transparent audit trail exists for these 125 payments.

Army Personnel Inconsistently Processed Foreign
EFT Payments
DDS did not maintain accurate payment method information for 140 of the 402 sample
payments, totaling $2.9 million, because DDS could not disburse EFT payments in
foreign currencies. Army disbursing offices developed workarounds to make foreign
currency EFT payments outside of DDS and record the payments as “check” payments in
DDS. However, the Army did not consistently employ these workarounds and
inaccurately recorded payment method information in DDS. For example, Army
disbursing personnel at DSSN 6335 (Europe theater) identified a foreign EFT payment as
a “check” in DDS and then processed the foreign EFT payment outside of DDS through a
local banking system. The DDS PMO, as of June 19, 2009, implemented a system
change request to be able to process foreign EFT payments in the international banking
community. However, the DDS PMO stated that despite this system change, system
limitations necessitate that disbursing offices like Korea and Belgium will still need to
use workarounds in processing foreign EFT payments through DDS. Because this will
not correct the accuracy of the payment method in DDS for disbursing offices using those
workarounds, USAFMCOM should require Army disbursing offices to develop
consistent methods for handling foreign EFT payments. In addition, USAFMCOM
should coordinate with DFAS to develop a consistent method within DDS to identify the
differences in the payment method of the foreign EFT payments.

Army’s Financial System Was Missing Key Payment Information
The Army’s financial system did not require entering fundamental information for
commercial payments processed through DDS. Specifically, the Army’s financial system
did not maintain complete invoice line item, contract or requisition number, invoice
received date, or invoice number information. The Core Financial System Requirements
state that adequate internal controls must be in place to verify that the goods or services
paid for were actually ordered, received, and accepted; that proper due dates and payment
amounts were computed; and that duplicate payments were prevented. DDS provided
different voucher methods for processing commercial payments; however, not all
methods captured information required by the Core Financial System Requirements.

DDS provided the following different voucher methods for processing commercial
payments, such as manual disbursements, CAPS, Standard Form 1034s, 13 and Standard
Form 44s. 14




13
     Standard Form 1034, “Public Voucher for Purchases and Services Other Than Personal” (SF 1034).
14
     Standard Form 44, “Purchase Order-Invoice-Voucher” (SF 44).


                                                    27 

   •	 The manual disbursement voucher method recorded disbursement vouchers
      prepared offline and required entering a minimal amount of information to
      process a payment in DDS.

   •	 The CAPS-DDS voucher method processed pre-certified vendor payments that
      DDS received through an interface from the CAPS entitlement system.

   •	 The SF 1034 voucher method permitted a DDS user to input complete payment
      data that resulted in a payment to an individual or organization for goods
      furnished or services rendered. This method provides an audit trail of the
      payment.

   •	 The SF 44 voucher method permitted a DDS user to input complete payment
      data that resulted in on the spot, over-the-counter purchases of supplies and
      non-personal services. This method provides an audit trail of the payment.

The DDS voucher methods for the 402 Army payments reviewed for data reliability
included 130 manual disbursements, 257 CAPS payments, and 15 SF 1034s. Army
payments processed through DDS using the manual disbursement and CAPS voucher
methods did not require the input of key information.

Manual Disbursement Voucher Method Did Not Capture
Key Information
Because Army disbursing personnel used the manual disbursement voucher method to
process commercial payments through DDS, the Army’s financial system did not
maintain the following key information for the 402 sample commercial payments:

    •	 invoice line items for 129 payments, totaling $4.9 million;

    •	 contract or requisition numbers for 54 payments, totaling $3.5 million;

    •	 invoice received dates for 48 payments, totaling $3.5 million; and

    •	 invoice numbers for 30 payments, totaling $2.6 million.

The financial system could not maintain the information because the manual
disbursement voucher method required entering a limited amount of information into
DDS to process a commercial payment. DDS personnel described this method as the
“catch all” disbursement voucher process that required the least amount of input. The
manual disbursement voucher method required entering payee information, amount, and
LOA data to process a commercial payment in DDS. This voucher method did not allow
for entering key data elements such as invoice line item, contract or requisition number,
and invoice received date information, and did not allow for entering invoice numbers for
cash or check payments. However, the Core Financial System Requirements state that
the core financial system must provide the automated functionality to capture:



                                           28 

    •	 invoice line items;

    •	 an agency-assigned source document number, which may be a contract or
       requisition number;

    •	 an invoice receipt date; and

    •	 a vendor invoice number.

Army disbursing personnel processed SF 44 payments in DDS with the manual
disbursement voucher method excluding key information. Although 30 of the sample
payments, totaling $1.3 million, contained 175 SF 44s in the supporting documentation,
disbursing personnel processed them using the manual disbursement voucher method.
DDS provides the functionality to process SF 44 payments using either the SF 44 or the
SF 1034 voucher method. Because disbursing personnel did not use the SF 44 or the
SF 1034 voucher method to process these payments, DDS did not provide information
such as the invoice line items, contract or requisition number, invoice received date,
invoice number, payee, or the amount of the individual purchases. For example, instead
of entering the vendor information in the payee field, disbursing personnel entered the
name of the paying agent. Because the individual SF 44 payment data are not in DDS, it
is not possible to identify from DDS data what the Army purchased or from whom they
purchased the invoice line items. Without this basic information in the Army’s financial
system, Army management does not have sufficient information to analyze payment data
to identify and minimize duplicate payments or other forms of improper payments. To
maintain an adequate audit trail associated with these payments, USAFMCOM should
require Army disbursing offices to use the SF 44 voucher method in DDS.

By using the manual disbursement voucher method, the Army disbursing offices entered
only the minimal amount of information entered into DDS and weakened the audit trail
associated with the payments. In addition, the Army’s financial system did not comply
with the Core Financial System Requirements to capture key payment information. To
maintain an adequate audit trail and comply with regulations, USAFMCOM should
require the disbursing offices to restrict the use of the manual disbursement voucher
method in DDS.

CAPS Voucher Method Did Not Capture Invoice Line Items
Because Army disbursing personnel used the CAPS voucher method to process
commercial payments through DDS, the Army’s financial system did not maintain
invoice line item information for 241 payments, totaling $5 million. These 241 payments
are in addition to the 129 manual disbursements previously discussed, totaling
370 payments missing invoice line item information. The 241 payments did not contain
the invoice line item information because neither the CAPS entitlement system nor the
DDS CAPS voucher method allowed for entering this information. The CAPS voucher
method captured only the data transferred from CAPS through an interface. Because the




                                           29 

Army’s financial system did not comply with the Core Financial System Requirements to
capture invoice line item information, DFAS should modify CAPS and the manual
disbursement function within DDS to capture invoice line item information before
processing all commercial payments in DDS.

DDS PMO Took Action to Address Previous Recommendations
In DoD Inspector General Report No. D-2010-037, “Internal Controls Over United States
Marine Corps Commercial and Miscellaneous Payments Processed Through the
Deployable Disbursing System,” January 25, 2010, we made recommendations to DFAS
management addressing modifications to DDS regarding key payment information,
including contract or requisition numbers, invoice received dates, and invoice numbers
for commercial payments processed through DDS. DFAS management agreed to our
recommendations. As of September 20, 2010, the DDS PMO personnel modified DDS to
require entering a contract or requisition number and invoice number for commercial
payments. In addition, in March 2011, the DDS PMO personnel modified DDS to
require the invoice received date for commercial payments. Therefore, we will not make
any recommendations to DFAS management related to the contract or requisition
number, invoice number, and invoice received date.

Army Did Not Have a Centralized Database of DDS Data
The Army disbursing offices could not provide a complete universe of DDS data for
13,795 commercial payments for $801.3 million in time for our review. This occurred
because the Army’s financial system did not maintain a centralized database of DDS
payment transactions. Following our requests for Army DDS data from FY 2006 through
FY 2008, the Army disbursing offices provided separate Army DDS databases with a
total of 211,808 commercial payments. However, these databases did not include
13,795 commercial payment transactions; therefore, we were not able to include them
in our assessment of internal controls or data reliability. During the review for missing
payment transactions, we identified DDS data for 13,523 of the 13,795 payment
transactions. An automated audit trail does not exist for the remaining 272 payment
transactions; however, we observed the hard copy vouchers associated with these
payments.

OMB Circular A-127 states that financial management systems must be in place to
provide complete, timely, reliable, and consistent information to deter fraud, waste, and
abuse of Federal Government resources. Although the Army did not maintain a
centralized database and could not provide a complete universe of DDS payments during
the audit, in November 2009, DDS PMO officials stated that the office developed a
centralized repository. The DDS PMO developed this repository, the DDS Data
Reporting Initiative, to provide visibility over summary level data associated with
payments processed through DDS starting in FY 2009. However, this repository did not
contain summary level data for all DDS payments processed before FY 2009. In
addition, the repository did not maintain all key data elements associated with DDS
payments, such as LOA and information to identify the users processing the payments in
DDS. In April 2011, the DDS PMO modified the repository to display the LOA and user
information. Therefore, we will not make any recommendation to DFAS management


                                           30 

relating to the modification of the repository providing visibility of LOA and user
information. However, DFAS should still incorporate the 13,523 payments into the
repository.

Conclusion
The Army’s financial system did not maintain accurate and complete data elements
such as LOA, payment method, invoice line item, contract or requisition number,
invoice received date, and invoice number. As a result, critical gaps of inaccurate
and incomplete data exist in the audit trail of the commercial payments Army
disbursing personnel processed through DDS. USAFMCOM and DFAS should
implement the recommendations in this report to improve the accuracy and completeness
of Army commercial payment data processed through DDS and to comply with
OMB Circular A-127 and the Core Financial System Requirements. Without a complete
audit trail, Army management does not have sufficient information to oversee the
commercial payment process and ensure payments are proper; without appropriate
oversight and proper payments, the Army places DoD funds at an increased risk for
human error, lack of audit trail, and improper payments.

Management Comments on the Finding and
Our Response
Department of the Army Comments
The DASA-FO provided additional comments on the finding to note that abnormal
balances related to DDS payments did not exceed acceptable threshold levels during the
audit.

Our Response
Our audit did not include a review of abnormal balances resulting from DDS payments;
therefore, we cannot comment on the validity of this statement.

Defense Finance and Accounting Service Comments
The Deputy Director, Operations, DFAS, provided additional comments on the finding to
highlight DFAS corrective actions that we did not include in the draft report. These
actions included the DDS PMO implementing system change requests to provide Army
management with sufficient visibility to readily review and identify access control
weaknesses, and to incorporate the LOA and user information into the Data Reporting
Initiative.

Our Response
The actions taken by DFAS relate to recommendations made in the DoDIG Report
No. D-2010-037, “Internal Controls Over United States Marine Corps Commercial and
Miscellaneous Payments Processed Through the Deployable Disbursing System,”
January 25, 2010, or modifications to the system as a result of our ongoing audit work.
In this report on controls over Army’s DDS payments, we state that, “As of



                                           31 

September 20, 2010, DDS PMO personnel modified DDS to require entering a contract
or requisition number and invoice number for commercial payments. In addition, in
March 2011, the DDS PMO personnel modified DDS to require the invoice received date
for commercial payments.” Because of the DDS PMO’s actions, we do not make any
recommendations to DFAS management related to the contract or requisition number,
invoice number, and invoice received date. We also explain that as of June 19, 2009, the
DDS PMO had implemented a system change request to be able to process foreign EFT
payments in the international banking community.

In April 2011, the DDS PMO modified the Data Reporting Initiative to display the line of
accounting data and user information. We issued the draft of this report on controls over
Army’s DDS payments on May 11, 2011; therefore, we did not capture the actions taken
by the DDS PMO. Because the DDS PMO took actions before the final report issuance,
we removed recommendation B.2.b that DFAS modify the Data Reporting Initiative to
LOA and user information.

Recommendations, Management Comments, and
Our Response
Deleted and Renumbered Recommendations
In response to management comments, we deleted draft Recommendation B.2.b;
therefore, we renumbered draft Recommendation B.2.c as Recommendation B.2.b.

B.1. We recommend that the Deputy Assistant Secretary of the Army (Financial
Operations):

       a. Require the Financial Management Centers to:

              (1) Use the Deployable Disbursing System and Standard Finance
System interface.

               (2) Develop procedures for Army disbursing offices making changes
to the Standard Finance System interface files and the recording of these changes in
the original supporting documentation.

            (3) Use consistent methods for those Army disbursing offices using
workarounds to handle foreign electronic funds transfer payments.

              (4) Restrict the use of the manual disbursement voucher method.

Department of the Army Comments
The DASA-FO agreed with Recommendations B.1.a(1) through B.1.a(4) and stated that
he had addressed these issues in his memorandum, “Army Disbursing and Entitlement
Systems Controls,” June 6, 2011.




                                           32 

             (5) Use the Standard Form 44 voucher method in the Deployable
Disbursing System when processing Standard Form 44 payments.

Department of the Army Comments
The DASA-FO agreed with Recommendation B.1.a(5) and stated that he had addressed
these issues in his memorandum, “Army Disbursing and Entitlement Systems Controls,”
June 6, 2011. He added, however, that “due to resource constraints and processing of
classified payments in contingency operations, disbursing offices are authorized to
process multiple SF 44s on a single SF 1034 voucher in the system provided key data is
included on the 1034 input or, for classified payments, use separately established
procedures for cross-referencing to separate classified files.”

        b. Review the Computerized Accounts Payable System and Deployable
Disbursing System data for completeness to ensure a transparent audit trail exists
for the 125 payments in our sample that had no trail.

Department of the Army Comments
The DASA-FO agreed and stated that DFAS has performed an exhaustive search of
copies of the CAPS databases. He also stated that the original CAPS data for these
payments have probably been archived. He further explained that the Business
Transformation Agency maintained a CAPS repository for the contingency theaters, but
there was not a centralized CAPS repository for all Army CAPS sites. Therefore, DFAS
was developing a deployable version of CAPS that would include a central repository.
He expected this improvement to be implemented in 2012.

       c. Coordinate with Defense Finance and Accounting Service to develop a
consistent method within the Deployable Disbursing System to identify the
differences in the payment method of the foreign electronic funds transfer
payments.

Department of the Army Comments
The DASA-FO agreed and stated that USAFMCOM, in coordination with DFAS, would
publish guidance on standardizing how electronic payments made through local
depository accounts were to be recorded in DDS. On August 2, 2011, the Director,
USAFMCOM agreed to provide this guidance no later than September 30, 2011.

Our Response
The DASA-FO comments to Recommendations B.1.a(1) through B.1.a(5), B.1.b, and
B.1.c were responsive and the actions met the intent of the recommendations.

B.2. We recommend that the Director, Defense Finance and Accounting Service:

        a. Modify the Computerized Accounts Payable System and the manual
disbursement function within the Deployable Disbursing System to capture invoice
line item information for all commercial payments,



                                          33 

Defense Finance and Accounting Service Comments
The Deputy Director, Operations, DFAS, agreed and stated that CAPS-Clipper did not
require invoice line item information. However, the invoice line item information was
required to be maintained in CAPS-Windows and DFAS was converting all remaining
sites that use CAPS-Clipper to CAPS-Windows by December 31, 2011.

Our Response
The Deputy Director, Operations, DFAS, comments were responsive, and the actions met
the intent of the recommendation.

      b. Incorporate the 13,523 Deployable Disbursing System payments into the
Data Reporting Initiative.

Defense Finance and Accounting Service Comments
The Deputy Director, Operations, DFAS, agreed and stated that the DDS PMO developed
the Data Reporting Initiative in January 2009, and it contains all but 272 DDS payment
transactions since 2009. He also stated that the DFAS provided hard copy vouchers for
the outstanding 272 transactions.

Our Response
The Deputy Director, Operations, DFAS, comments were not responsive. His comments
did not specifically address whether the DDS PMO incorporated the 13,523 Army DDS
payments, which occurred before January 2009, into the Data Reporting Initiative. We
request that the Deputy Director, Operations, DFAS, provide additional comments on
recommendation B.2.b.




                                          34 

Finding C. Army and DFAS Had Inadequate
Controls Over DDS Database Changes
Army disbursing offices and DFAS did not have adequate controls for the 1,017 DDS
database changes that we reviewed. Specifically, Army disbursing offices and DFAS:

   •	 did not maintain adequate supporting documentation for 1,017 DDS database
      changes, and

   •	 did not document the review and approval of 294 DDS database changes.

In addition, the Army disbursing offices and DFAS did not maintain a complete
repository that included 210 DDS database changes. This occurred because
USAFMCOM and DFAS officials did not have a memorandum of agreement that
included procedures on how to request, approve, document, execute, and retain DDS
database changes. In addition, the Under Secretary of Defense (Comptroller)/Chief
Financial Officer, DoD, did not publish guidance on how to properly document and
control changes to DoD databases. As a result, disbursing offices initiated 294 database
changes with the intent to adjust $49.7 million in fund accountability without supporting
documentation or approval. Further, disbursing offices initiated 53 database changes to
end-of-day balances on the Statement of Accountability report without documented
approval of the updated report.

Database Change Audit Trail Requirements
According to the DoD FMR, the Under Secretary of Defense (Comptroller)/Chief
Financial Officer, DoD, is responsible for overseeing the establishment of internal
controls and audit trails required for preparing financial reports and for processing
associated transactions. The DoD FMR also requires that DoD Components ensure that
they maintain audit trails in sufficient detail to permit tracing transactions from their
sources to their transmission to DFAS. Audit trails enable tracing a transaction from the
manual vouchers and corresponding supporting documentation to the financial
statements.

According to the Core Financial System Requirements, all financial management systems
must have security, internal controls, and accountability built into the processes and must
provide an audit trail. These requirements also state that adequate audit trails are critical
to providing support for transactions and balances maintained by the core financial
system. In addition, the core financial system must capture all document change events,
including the date, time, and user identification. Adequate audit trails enable agencies to
reconcile accounts, research document history, and query data stored in the core financial
system.




                                             35 

DDS Database Change Process
According to DDS PMO personnel, disbursing office personnel called the DDS PMO
help desk when they had a problem with DDS. The DDS PMO entered call information
such as the caller name, date, location, problem description, and the resolution into the
Customer Support Initiative (CSI) database. The DDS PMO stated that most issues were
resolved over the phone; however, some circumstances required a database change, also
known as a script, to resolve the problem. When the DDS PMO determined the
disbursing office needed a database change, the DDS PMO requested a copy of the
disbursing office’s DDS database to verify the problem. The DFAS Technology Services
Organization 15 created the database change file, the DDS PMO provided it to the
disbursing office, and the disbursing office executed the database change file. The
Technology Services Organization attached the database change file to Tracker, which
was a repository for database change files. DFAS did not have procedures for
documenting this process and should develop procedures documenting the process for
requesting and executing database changes.

Controls Need to Be Established Over Army DDS
Database Changes
Army disbursing offices and the DDS PMO did not have adequate internal controls over
changes made to the DDS database. The DDS PMO provided a list of 1,036 Army DDS
database changes made during FY 2006 through FY 2008; we identified an additional
210 DDS database changes through a review of the CSI database. As a result, the
DDS PMO issued 1,246 DDS database changes during FY 2006 through FY 2008. The
DDS PMO was not able to provide 229 database changes in time for our review.
Therefore, we were able to review only 1,017 of the 1,246 DDS database changes.
Table 6 shows a breakout of the DDS database changes.

          Table 6. Army DDS Database Changes from FY 2006 through FY 2008
                Source of         Number of Database      Number of Database
           Database Change             Changes             Changes Reviewed
     Database Changes Originally         1,036                   1,017
     Identified by DDS PMO
     Additional Database Changes           210                       0
     Identified During Audit
       Total                             1,246                   1,017




15
 The DFAS Technology Services Organization oversees the development, implementation, operation, and
maintenance of DFAS systems.


                                                36
DDS Database Changes Not Adequately Supported
Army disbursing offices and the DDS PMO did not maintain adequate supporting
documentation for the 1,017 DDS database changes. Specifically,

   •	 the DDS PMO did not provide complete and accurate descriptions of database
      changes, and

   •	 Army disbursing offices and the DDS PMO did not maintain adequate controls in
      DDS to determine whether the Army disbursing personnel made changes to the
      DDS database.

Database Change Descriptions Incomplete and Inaccurate
The DDS PMO did not document a complete and accurate description of database
changes. Specifically, the DDS PMO:

   •	 did not document in CSI

           o	 key information on what caused the problem and how it was resolved,
              including the lines and amounts modified by a database change, and

           o	 the name of the database change file when the DDS PMO issued a
              database change to the Army disbursing personnel, and

   •	 did not document in the database change file the complete or accurate description
      as to what lines the database change affected.

The DDS PMO did not document complete and accurate information because the DDS
PMO did not have policy and procedures on the information and documentation that
should be included in either CSI or the database change file. On May 10, 2010, the
DDS PMO issued an internal standard operating procedures manual providing new
guidance on documentation and maintenance of database changes. However, the
procedures did not include specific guidance on how to document the effect of a database
change on the data. DFAS needs to create procedures that will capture a complete and
accurate description of DDS database changes.

Adequate Controls Needed to Maintain Evidence of
Database Changes
Army disbursing offices and the DDS PMO did not have adequate controls to maintain
system information to identify database changes executed by disbursing offices. When
an Army disbursing office executes a database change, DDS records the name of the
database change file and a brief description of the change in the error log. In addition,
this documentation in the error log prevents the disbursing office from incorporating the
same database change multiple times. However, when Army disbursing offices archive
and delete their DDS data, DDS does not maintain the error log. Without the error log,
Army management cannot determine whether the disbursing office executed a database



                                            37 

change, and consequently, the disbursing office may inadvertently run a database change
multiple times, which would cause the data to be further changed.

     In response to our identification In response to our identification of this issue, the
       of this issue, the DDS PMO      DDS PMO created controls to maintain system
       created controls to maintain    information to identify whether a disbursing office
           system information…         executed a database change. When a disbursing
                                       office executes a database change, DDS records
the database change name in the application history table. DDS maintains the application
history table when the disbursing offices archive and delete their DDS data. Because the
DDS PMO established adequate controls to retain system information, we will not make
a recommendation on this issue.

Database Changes Did Not Have Adequate Review and
Approval Documentation
Army disbursing offices and the DDS PMO did not document the review and approval of
DDS database changes. Specifically,

     •	 Army disbursing offices and the DDS PMO did not document approval for at
        least 294 of 1,017 database changes, affecting $49.7 million in Army fund
        accountability as reported on Statement of Accountability16 (SOA) reports; and

     •	 Army disbursing personnel requested at least 53 of the 1,017 database changes to
        DDS data used to create previous SOA reports. However, the Army did not have
        procedures requiring the review and approval of the revised SOA report.

Accountability Changes Need Documented Approval
The DDS PMO, at the request of the Army disbursing personnel, provided at least 294 of
1,017 DDS database changes to increase or decrease $49.7 million in fund accountability.
These changes represented modifications in the classification of funds for which
disbursing officers were accountable to the U.S. Treasury. Army disbursing offices and
the DDS PMO did not provide documented evidence of review and approval of these
database changes.




16
  The Statement of Accountability reports impacted by database changes include the DD Form 2657 and
DD Form 2665. Disbursing officers maintain their daily accountability on the DD Form 2657 (Daily
Statement of Accountability). Deputies, cashiers, and agents report their accountability to the disbursing
officer on DD Form 2665 (Daily Agent Accountability Summary).


                                                    38 

The DDS PMO did not require written approval for            USAFMCOM and the DDS
creating, issuing, and implementing database               PMO did not require formal
changes that increase or decrease accountability.         disbursing officer approval of
Although the Army disbursing officers should have        DDS database changes affecting
oversight over any increases or decreases in their                accountability.
accountability, USAFMCOM did not have
requirements for formally approving DDS database change requests that affect the
disbursing officer’s accountability. USAFMCOM and the DDS PMO did not require
formal disbursing officer approval of DDS database changes affecting accountability.
Therefore, there was no evidence that the disbursing officer acknowledged accountability
increases or decreases resulting from the database change. In addition, the DoD FMR
does not contain guidance on documenting and making changes to a database. However,
during our audit, the DDS PMO added a requirement for the DDS PMO to approve
database changes affecting accountability, to notify the disbursing officer of the changes,
and to document the information in CSI.

Army disbursing offices and the DDS PMO also did not properly document database
changes that affected accountability. Database changes that affected accountability
contained a brief description on the printed SOA report. However, these descriptions
were unreliable. For example, a DDS database change description showed that the
change updated the day’s beginning balance, when actually, it corrected the previous
day’s ending balance. USAFMCOM and DFAS need to create guidance that requires
formal disbursing officer approval of all DDS database changes affecting accountability
and proper documentation of the changes. In addition, USAFMCOM should review the
294 DDS database changes that affected accountability to ensure that DoD funds were
not at risk for fraud, waste, or abuse.

DDS Database Changes Affect Daily Balances for Reporting Amounts
The DDS PMO provided at least 53 of 1,017 database changes that affected DDS data
and were used to create SOA reports. However, USAFMCOM and the DDS PMO did
not establish procedures requiring the review and approval of an updated SOA report
resulting from DDS database changes. These 53 database changes would revise end of
day balances to closed business days’ reports. For example, a database change increased
the ending day balance for the previous day’s SOA report by $478,697.94; however, the
DDS PMO did not require the Army disbursing officer to review and sign the modified
SOA report associated with this change. Changing the end of day balances could cause
the Army disbursing offices to have obsolete signed SOA reports that do not match the
DDS data used to create the reports. Signed SOAs provide the signees acknowledgment
of the amount of funds for which they are liable. 17 The DDS PMO also provided
database changes that affected only the report amounts, but did not correct the
transactional data that supports the report. For example, the DDS PMO issued a database
change to adjust an SOA report that the day’s accountability and month-to-date


17
  A signed SOA represents the disbursing officer’s acknowledgment of the amount of funds under his/her
control for which he/she is liable per the appointment letter. See the Glossary of Technical Terns for
additional information.


                                                  39 

accountability were out of balance by $54,329 for over 20 days. This adjustment to the
SOA report was not supported by transactional data. USAFMCOM should require that
the disbursing officer review and approve modified SOA reports. In addition,
USAFMCOM should review and approve modified SOA reports impacted by the
53 database changes.

DDS Database Change Repository Was Incomplete
The DDS PMO did not maintain a complete repository of database change files. The
DDS PMO could not locate the database change files for 69 (5.5 percent) of the
1,246 database changes. Because the DDS PMO did not provide the actual database
change file, we could not determine whether the changes were legitimate.

As a result of this audit, the DDS PMO incorporated a central repository to maintain all
database change files. The Technology Services Organization reconciles the repository
to CSI and the Tracker system to verify the repository accounts for all database change
files. Because the DDS PMO established a central repository to retain copies of all DDS
database change files, we will not be making a recommendation on this issue.

Guidance on Database Changes Needs to Be Complete
USAFMCOM and the DDS PMO need to improve internal controls over Army DDS
database changes by developing a memorandum of agreement or formal procedures
providing guidance on how to request, approve, document, execute, and retain DDS
database changes. DoD FMR, volume 1, chapter 3, requires DFAS to establish a
memorandum of agreement with each DoD organization supported by DFAS systems.
Army disbursing offices and the DDS PMO did not have adequate documentation on the
procedures for making database changes. The formal procedures that the DDS PMO
provided relating to the DDS database change process was included in the Help Desk
Night-Shift Operations standard operating procedures. For the database change process,
this standard operating procedure discussed only the approval process for database
changes affecting accountability. However, the approval process was inadequate because
it did not require the disbursing officer’s approval for changes affecting accountability.
In addition, the Technology Services Organization did not have any written procedures
on how to create the database change files. USAFMCOM and DFAS need to create
guidance and procedures on how to request, approve, document, execute, and retain DDS
database changes.

DoD Needs Policies for Documenting and Controlling
Database Changes
Although the Office of the Under Secretary of Defense (Comptroller/Chief Financial
Officer) established policy on audit trails, DoD has not published guidance on how to
properly document and control changes to DoD databases. The DoD should incorporate
into the DoD FMR guidance establishing internal controls and audit trails for changes to




                                           40 

DoD databases. At a minimum, the guidance should provide requirements for
documenting database changes to include justification, approval, dollar amount of the
change, date and time of the change, and the identification of the system user making the
change.

Conclusion
USAFMCOM and the DDS PMO did not have adequate guidance on how to request,
approve, document, execute, and retain DDS database changes. In addition, the DoD has
not issued guidance on controls for database changes. As a result, the Army and
DDS PMO did not have a proper audit trail to determine the reliability of DDS data nor
support the validity of changes to Army fund accountability. It is essential that
USAFMCOM and the DDS PMO create guidance to document procedures on how to
request, approve, document, execute, and retain DDS database changes. A transparent
audit trail requires complete and accurate documentation. USAFMCOM should review
each instance in which DDS database changes affected accountability to ensure
safeguarding taxpayer funds against fraud, waste, or abuse.

Management Comments on the Finding and
Our Response
Defense Finance and Accounting Service Comments
The Deputy Director, Operations, DFAS, provided additional comments on the finding to
highlight some of the internal controls that existed over database changes. He explained
that internal controls existed through the standard operating procedures and processes in
place to reconcile the database changes.

Our Response
On page 37, we discuss an internal standard operating procedures manual that the DDS
PMO issued on May 10, 2010. We acknowledged that this manual provided new
guidance and controls over the documentation and maintenance of database changes.
However, the manual “did not include specific guidance on how to document the effect
of a database change on the data.” Therefore, we concluded the procedures did not
provide adequate controls over the documentation and maintenance of database changes.
In addition, although the database change reconciliation process started in February 2010,
the DDS PMO was not able to provide supporting documentation for 229 database
changes in time for our review.

Recommendations, Management Comments, and
Our Response
C.1. We recommend that the Under Secretary of Defense (Comptroller)/Chief
Financial Officer, DoD, update the DoD 7000.14-R, “DoD Financial Management
Regulation” with guidance establishing internal controls and audit trails for
changes to DoD databases. At a minimum, this guidance should require:



                                           41 

       a. Justification for the database change,

       b. Dollar amount of the database change,

       c. Date and time of the database change,

      d. Name and position of the individual reviewing and approving the
database change, and

       e. User identification of the individual making the database change.

Under Secretary of Defense (Comptroller)/Chief Financial
Officer, DoD, Comments
The Deputy Chief Financial Officer partially agreed. He stated that although he agreed
that there should be published guidance on how to properly document and control
changes to DoD databases, he did not agree that this detailed guidance be included in the
DoD FMR. Rather, he agreed to add a statement that directs Components to include
appropriate internal controls and audit trails for adjustments to data and databases as
outlined in the OMB Circular A-123, “Management’s Responsibility for Internal
Control.” The estimated completion date for the update to DoD FMR, volume 1,
chapter 3, is January 2012.

Our Response
The Deputy Chief Financial Officer’s comments were responsive and he agreed to add a
statement to the DoD FMR directing Components to include appropriate internal controls
and audit trails for adjustments to data and databases in compliance with the OMB
Circular A-123. This action met the intent of the recommendations.

C.2. We recommend that the Deputy Assistant Secretary of the Army (Financial
Operations):

       a. Review the 294 Deployable Disbursing System database changes that
affected accountability to ensure that DoD funds were not subjected to fraud, waste,
or abuse.

       b. Review and approve modified Statement of Accountability reports
impacted by the 53 Deployable Disbursing System database changes identified in
this audit.

Department of the Army Comments
The DASA-FO agreed and stated that the internal review office would review a sample of
the 294 database changes to ensure disbursed funds were not subjected to fraud, waste, or
abuse. He also agreed to review a sample of the 53 database changes identified in the
audit, which impacted Statement of Accountability reports. He anticipated that the
preliminary results of this review would be available by December 31, 2011.



                                           42 

Our Response
The DASA-FO comments were responsive, and the actions met the intent of the
recommendations.

C.3. We recommend that the Deputy Assistant Secretary of the Army (Financial
Operations), in coordination with the Director, Defense Finance and Accounting
Service, develop a memorandum of agreement or formal procedures providing
guidance on how to request, approve, document, and execute Deployable Disbursing
System database changes. In addition, require the disbursing officer to approve all
changes that affect their accountability and review and approve all modified
Statement of Accountability reports.

Army Comments
The DASA-FO agreed. He will implement the enhanced controls and audit logs that
DFAS developed for using script files to modify the DDS database values for uncorrected
errors. He said he would limit scripts affecting daily accountability to those requested by
the responsible disbursing official. He stated he would coordinate with DFAS to codify
these changes in a formal document.

Defense Finance and Accounting Service Comments
The Deputy Director, Operations, DFAS, agreed and stated that the DDS PMO and
DASA-FO have collaborated to modify the DDS Help Desk Standard Operating
Procedures for requesting changes to DDS. The Standard Operating Procedures require
notifying the disbursing officer before making changes to the database. On July 8, 2011,
the DDS PMO provided the DDS Help Desk Standard Operating Procedures signed by
the Director, USAFMCOM; the DDS Program Manager; and the Director, U.S. Marine
Corps Disbursing Operations.

Our Response
The DASA-FO and the Deputy Director, Operations, DFAS, comments were responsive.
They have taken actions that met the intent of the recommendations.




                                            43 

Appendix A. Audit Scope and Methodology
We conducted this performance audit from August 2009 through March 2011 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

From FY 2006 through FY 2008, the Army processed more than 285,926 commercial
and miscellaneous payments, totaling $13.9 billion, through DDS. We received DDS
data for 272,131 payments. We identified an additional 13,795 payments, totaling
$801.3 million, for which we were missing DDS data. We could not review the
13,795 payments because Army disbursing offices did not provide the DDS data in time
for our review. Therefore, this was a scope limitation. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objectives.

From the DDS databases the DDS PMO originally provided, we obtained a universe for
Army payments made from FY 2006 through FY 2008, which included
272,131 payments, totaling $13.1 billion. The universe included commercial and
miscellaneous payment from Army disbursing offices located in Europe, Korea, and
Southwest Asia. Our nonstatistical sampling approach resulted in the selection of
425 payments, totaling $10.5 million, from a universe of 211,808 commercial payments,
totaling $9.6 billion. We excluded the 60,323 miscellaneous payments from the sample
universe because miscellaneous payments included payments such as condolence or
travel payments, which were not in the scope of our data reliability review.

Table A-1 shows a breakout of the nonstatistically sampled commercial payments by
location. We tested the reliability of DDS payment information by comparing 425 hard
copy vouchers and supporting documentation to the DDS data. We could not assess
reliability for 23 of these commercial payments because they represented Government
Purchase Card payments for which visited Army disbursing offices did not maintain the
supporting documentation.

                Table A-1. Nonstatistical Sample of Army Payments
         Location           Number of Payments              Amount

 Europe                                 150                      $1,418,650

 Korea                                   130                      2,732,457

 Southwest Asia                          145                      6,391,811

    Total                               425                      $10,542,918




                                           44 

We also performed site visits to evaluate the effectiveness of current internal controls.

We visited seven Army DSSNs, completed internal control reviews for 16 Army DSSNs,

and manually reviewed hard copy vouchers for 10 Army DSSNs. The nonstatistical 

sample did not include payments from all 16 DSSNs because some DSSNs processed few

or no commercial payments. Table A-2 provides a breakout of each DSSN included in 

our reviews. 


                  Table A-2. Army Disbursing Offices Reviewed
  Disbursing Offices     Systems Control   Internal Control              Sites with
                             Review*            Review                  Nonstatistical
                                                                      Sample Payments
Europe Theater (6 sites)
   DSSN 5499                               X              X                    X
   DSSN 6335                               X              X                    X
   DSSN 6387                               X              X
   DSSN 6460                                              X
   DSSN 6583                                              X
   DSSN 8763                               X              X                    X
Korea Theater (2 sites)
   DSSN 5023                                              X
   DSSN 6411                               X              X                    X
SWA Theater (8 sites)
   DSSN 5579                               X              X                    X
   DSSN 5588                                              X                    X
   DSSN 8485                                              X
   DSSN 8547                                              X                    X
   DSSN 8549                                              X                    X
   DSSN 8589                                              X                    X
   DSSN 8748                               X              X                    X
   DSSN 8788                                              X
 Total                                     7              16                  10
*Performed at the disbursing offices we visited.

We analyzed the sampled payments to determine the reliability of the data processed
through DDS. We completed a review of the sample payments to determine whether key
data elements, such as certifying official information, contract and requisition numbers,
invoice received date, and invoice number, were complete and accurate. We did not
perform any audit work relating to the recording of related obligations because DDS is
not involved in the recording of Army obligations.




                                                   45 

We compared the DDS data for the 425 sampled commercial payments to STANFINS
and CAPS data to verify that all matched and that the data were complete and accurate.

We also reviewed 1,017 database changes of the 1,246 the DDS PMO created in response
to Army disbursing personnel requests to alter DDS data. The DDS PMO could not
provide 229 database changes in time for our review; therefore, we consider this a scope
limitation.

Use of Computer-Processed Data
The objective of the audit was to assess the reliability of DDS data. We found DDS data
to be incomplete and inaccurate and, therefore, unreliable. We relied upon computer-
processed data obtained from STANFINS, CAPS, and CSI to perform this audit. We
assessed the reliability of STANFINS data by comparing the LOA from DDS data to
STANFINS data. Although we found discrepancies in comparing the DDS data with
STANFINS data, we found the STANFINS data sufficiently reliable for our purposes.
We assessed the reliability of CAPS data by comparing CAPS data and hard copy
vouchers to DDS data. We found discrepancies in the CAPS data, and we made a
recommendation to ensure a transparent audit trail exists; otherwise, the CAPS data as
they related to the audit objective were reliable. We found CSI did not contain complete
documentation of the database changes and made a recommendation to correct the
incomplete documentation; otherwise, the information in CSI as it related to the audit
objective was reliable.

Use of Technical Assistance
The DoD Office of Inspector General Quantitative Methods and Analysis Division
provided a sample of payments from DDS to test for reliability. In addition, the
Quantitative Methods and Analysis Division consolidated the DDS databases provided by
the DDS PMO into the data-mining program for the audit team to analyze.




                                           46 

Appendix B. Prior Coverage of the
Deployable Disbursing System
During the last 5 years, the Department of Defense Inspector General (DoD IG)
and the Army Audit Agency (AAA) have issued 12 reports discussing the
Deployable Disbursing System. Unrestricted DoD IG reports can be accessed at
http://www.dodig.mil/audit/reports. Unrestricted Army reports can be accessed from .mil
and gao.gov domains over the Internet at https://www.aaa.army.mil/.

DoD IG
DoD IG Report No. D-2010-038, “Identification of Classified Information in an
Unclassified DoD System and an Unsecured DoD Facility,” January 25, 2010 (FOUO)

DoD IG Report No. D-2010-037, “Internal Controls Over United States Marine Corps
Commercial and Miscellaneous Payments Processed Through the Deployable Disbursing
System,” January 25, 2010

DoD IG Report No. D-2010-034, “Internal Controls Over the Army, General Fund Cash
and Other Monetary Assets Held in Southwest Asia,” January 8, 2010

DoD IG Report No. D-2009-062, “Internal Controls Over DoD Cash and Other Monetary
Assets,” March 25, 2009

DoD IG Report No. D-2009-054, “Identification of Classified Information in
Unclassified DoD Systems During the Audit of Internal Controls and Data Reliability in
the Deployable Disbursing System,” February 17, 2009

DoD IG Report No. D-2009-003, “Internal Controls Over Army General Fund, Cash and
Other Monetary Assets Held Outside of the Continental United States,” October 9, 2008

DoD IG Report No. D-2008-098, “Internal Controls Over Payments Made in Iraq,
Kuwait, and Egypt,” May 22, 2008

DoD IG Report No. D-2008-040, “Defense Retiree and Annuitant Pay System and the
Deployable Disbursing System Compliance with the Defense Business Transformation
System Certification Criteria,” January 4, 2008

Army
AAA Report No. A-2010-0062-ALL, “Audit of Controls Over Vendor Payments ­
Southwest Asia (Phase II)” March 16, 2010

AAA Report No. A-2010-0057-ALL, “Audit of Controls Over Vendor Payments ­
Southwest Asia (Phase II)” February 24, 2010




                                          47 

AAA Report No. A-2010-0012-ALL, “Audit of Controls Over Vendor Payments ­
Southwest Asia (Phase II)” January 5, 2010

AAA Report No. A-2009-0173-ALL, “Audit of Controls Over Vendor Payments ­
Kuwait (Phase I – U.S. Army Contracting Command, Southwest Asia, Camp Arifjan,
Kuwait)” July 29, 2009




                                       48 

Appendix C. Army Vendor Payment Cycle
The audit trail for the Army procurement and disbursing process begins with the
identified requirement for goods and services and ends with a payment out of DDS.

1.	 The Army:
    •	 acknowledges the requirement for goods or services,
    •	 develops a Purchase Request and Commitment, and
    •	 forwards the purchase request information to the Resource Management Shop.

2.	 The Resource Management Shop:
    •	 assigns the funding and
    •	 enters the commitment into the Resource Management Tool or database 

       Commitment Accounting System, which in turn sends the information to 

       STANFINS. 


3.	 The Army contracting office:
    •	 confirms the purchase request in Resource Management Tool,
    •	 uses the approved Purchase Request and Commitment to create the contract, and
    •	 enters the contract fulfilling the requirements for goods and services in Standard
       Procurement System/Procurement Desktop Defense.

4.	 The Army forwards the contract from Standard Procurement System/Procurement
    Desktop Defense through an automated interface to the entitlement system, CAPS, or
    manually provides it to vendor pay.

5.	 The vendor:
    •	 provides the goods and services and
    •	 submits an invoice.

6.	 The receiving official:
    •	 acknowledges receipt of goods or services on the receiving report and
    •	 forwards the receiving report to vendor pay.

7.	 Army vendor pay personnel enter vendor invoice and receiving report information
    into CAPS.

8.	 CAPS creates a voucher for payment.

9.	 The certifying officer, in accordance with DoD FMR, volume 5, chapter 33:
    •	 reviews the payments and
    •	 authorizes the hard copy CAPS vouchers.




                                             49 

10. Through an interface, CAPS passes the payment data to the disbursing system, DDS.

However, not all commercial payments flow through CAPS. The Army processes some
commercial payments through manual entry of payment information into DDS.

11. Whether processed through an interface or manual entry into DDS, the disbursing
    office:
    •	 makes payments by cash, check, or EFT,
    •	 sends payments to vendors in one of two ways:
        o	 through an EFT/International Wire to the vendor's account through the
            International Treasury System or
        o	 through payment to a local depository account for the vendor to withdrawal
            the cash, and then
    •	 sends payment data to STANFINS, where the disbursement cycle ends.

The following figure illustrates the automated interface and manual process for Army
vendor payments.




                                          50 

    Figure. Army Automated Flow of Vendor Payments

                                                                                   Automated
                                                                                   Interface
    Requirement for
    Goods or Services                                      SPS/PD2                  Manual
                                                                                    Process


                           Purchase,
                           Request, &           Contract
                           Commitment                                               Goods or
                                                                                    Services
                                                            Receiving               Accepted
                                                             Report
    RMT/dbCAS




                              CAPS                                                 Receiving Entity

                                                                Invoice
Commitment/Obligation
                                                                               Goods or Services
                                                                               Delivered
                                        Voucher




                                                                                        Vendor
                                        Certification
                                        of Voucher

                                                                     Check/Cash
      STANFINS                                                       (Local
                        Expenditure/Accrual                          Depository)


                                                                                       ITS.GOV
                                              DDS                                      (Federal
                                                                                       Reserve
                                                             EFT/International         Bank of New
                                                             Wire                      York)

•    Resource Management Tool (RMT) or database Commitment Accounting System (dbCAS)­
     Commitment System
•    Standard Procurement System/Procurement Desktop Defense (SPS/PD2)- Contracting System
•    Computerized Accounts Payable System (CAPS)- Entitlement System
•    Deployable Disbursing System (DDS)- Disbursing System
•    Standard Finance System (STANFINS)- Accounting System
•    International Treasury System (ITS.GOV)
*Payments manually disbursed from DDS do not flow through CAPS.




                                                    51 

Glossary of Technical Terms
Army’s Financial System. The Army’s financial system is an information system
consisting of applications, such as STANFINS, CAPS, and DDS, that collect, process,
maintain, transmit, and report data about financial events.

Appointment Letter. An appointment letter states the specific duties the disbursing
office and all other agent officers are authorized to perform. It includes the statement “I
acknowledge that I am strictly liable to the United States for all public funds under my
control.” This letter also includes a statement that confirms that the appointee has been
counseled with regard to pecuniary liability and has been given written operating
instructions.

Backout. A backout is an action completed to correct or void a payment.

Computerized Accounts Payable System (CAPS). CAPS is the entitlement system the
Army uses that generates a voucher for payment and interfaces with DDS.

Database Change. A database change is a method of changing data without using actual
transactions.

Deployable Disbursing System (DDS). DDS is a disbursing system that automates a
variety of disbursing office functions including travel, military, commercial, and
miscellaneous payments; accounts payable; collection processes; and financial reporting
requirements. It interfaces with both the Computerized Accounts Payable System and the
Standard Finance System.

Disbursing Office. A disbursing office is an activity or the organizational unit of an
activity whose principal function consists of disbursing, collecting, and reporting of
public funds.

Disbursing Station Symbol Numbers (DSSN). A DSSN is a four-digit number
assigned to each disbursing office by the Department of Treasury. The DSSN is an
identification number that indicates authority to receive and disburse public funds and
issue checks on the U.S. Treasury. In this report, we refer to disbursing offices by DSSN.

Generic User Accounts. Generic user accounts are those with general account
identifications that are not assigned to a specific DDS user.

Improper Payments. Improper payments are those that should not have been made or
that were made in an incorrect amount under statutory, contractual, administrative, or
other legally applicable requirements.

Interface. An interface is a method of communication between two systems that often
includes transferring data from one system to another.




                                             52 

Multiple User Accounts. Multiple user accounts are those where more than one account
is assigned to one DDS user. A user with multiple user accounts can access several
privileges and perform multiple disbursing functions.

Privileges. Privileges in DDS allow users to perform disbursing functions, which include
system administrator, accounting, payment certification, check printing, and voucher
input.

Standard Finance System (STANFINS). STANFINS is the Army accounting system
that interfaces with DDS.

System Administrator Privilege. The system administrator privilege in DDS allows
users to access the user setup screen, manipulate payment data, create and maintain user
accounts, assign privileges, reset passwords, back out payments, and archive and purge
data.

User Account List. The user account list for DDS identifies individuals assigned to
DDS within a disbursing office. This list details the user’s name, identification, and
outstanding fund balance.

Voucher. A voucher is a document certified by a certifying officer as a basis for a
disbursing officer to make a payment. In this report we refer to SF 1034 (Public Voucher
for Purchases and Services Other Than Personal) as a voucher.




                                            53 

Under Secretary of Defense (Comptroller)/Chief Financial
Officer, DoD Comments




                    Click to add JPEG file




                                   54
Click to add JPEG file




               55
Department of the Army Comments





                  Click to add JPEG file




                                 56
Click to add JPEG file




               57
Click to add JPEG file




               58
Click to add JPEG file




               59
Click to add JPEG file




               60
Click to add JPEG file




               61
Click to add JPEG file




               62
Defense Finance and Accounting Service Comments





                  Click to add JPEG file




                                 63
Click to add JPEG file




               64
                           Final Report 

                            Reference





Click to add JPEG file


                         Page 23




               65
                           Final Report 

                            Reference





                         Page 23




                         Page 27




Click to add JPEG file




                         Page 27 & Page 28




                         Page 30




               66
                           Final Report 

                            Reference





                         Page 35




Click to add JPEG file
                         Page 40




                         Deleted




               67
                           Final Report 

                            Reference





                         Renumbered as
                         Recommendation
                         B.2.b




Click to add JPEG file




               68
